<html>
<title> - REAUTHORIZING THE HIGHER EDUCATION ACT: ACCESS AND INNOVATION</title>
<body><pre>[Senate Hearing 115-731]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-731
 
                           REAUTHORIZING THE
                         HIGHER EDUCATION ACT:
                         ACCESS AND INNOVATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING REAUTHORIZING THE HIGHER EDUCATION ACT, FOCUSING ON ACCESS 
                             AND INNOVATION

                               __________

                            JANUARY 25, 2018

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
                                


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 28-518              WASHINGTON : 2020       
        
        
        
        
        
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman
                  
MICHAEL B. ENZI, Wyoming           PATTY MURRAY, Washington
RICHARD BURR, North Carolina       BERNARD SANDERS (I), Vermont
JOHNNY ISAKSON, Georgia            ROBERT P. CASEY, JR., Pennsylvania
RAND PAUL, Kentucky                MICHAEL F. BENNET, Colorado
SUSAN M. COLLINS, Maine            TAMMY BALDWIN, Wisconsin
BILL CASSIDY, M.D., Louisiana      CHRISTOPHER S. MURPHY, Connecticut
TODD YOUNG, Indiana                ELIZABETH WARREN, Massachusetts
ORRIN G. HATCH, Utah               TIM KAINE, Virginia
PAT ROBERTS, Kansas                MAGGIE HASSAN, New Hampshire
LISA MURKOWSKI, Alaska             TINA SMITH, Minnesota
TIM SCOTT, South Carolina          DOUG JONES, Alabama

                               
                                     
               David P. Cleary, Republican Staff Director
         Lindsey Ward Seidman, Republican Deputy Staff Director
                 Evan Schatz, Democratic Staff Director
             John Righter, Democratic Deputy Staff Director
             
             
             
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       THURSDAY, JANUARY 25, 2018

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, Ranking Member, a U.S. Senator from the State 
  of Washington, Opening Statement...............................     3

                           Witnesses--Panel I

May, Joe, Chancellor, Dallas County Community College District, 
  Dallas, TX.....................................................     7
    Prepared statement...........................................     8
    Summary statement............................................    11
Linderman, Donna, University Dean for Student Success 
  Initiatives, City University of New York, New York, NY.........    12
    Prepared statement...........................................    14
    Summary statement............................................    18
Brittingham, Barbara, President, Commission on Institutions of 
  Higher Education, New England Association of School and 
  Colleges, Burlington, MA.......................................    20
    Prepared statement...........................................    22
    Summary statement............................................    23
Bushway, Deborah, Independent Higher Education Consultant, and 
  Provost, Northwestern Health Sciences University, Bloomington, 
  MN.............................................................    24
    Prepared statement...........................................    26
    Summary statement............................................    31
Larsson, Michael, Founder and President, Match Beyond, Boston, MA    32
    Prepared statement...........................................    34
    Summary statement............................................    38

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
Hatch, Hon. Orrin:
    Prepared Statement for the Record............................    62
    Salt Lake Community College, Prepared Statement..............    63
    Western Governors University, Prepared Statement.............    64


                           REAUTHORIZING THE


                         HIGHER EDUCATION ACT:


                         ACCESS AND INNOVATION
                              ----------                              


                       Thursday, January 25, 2018

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-430, Dirksen Senate Office building, Hon. Lamar 
Alexander, Chairman of the Committee, presiding.
    Present: Senators Alexander [presiding], Enzi, Burr, 
Isakson, Paul, Collins, Young, Hatch, Murray, Sanders, Casey, 
Bennet, Murphy, Kaine, Warren, Hassan, Smith, and Jones.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    This is another in a series of hearings as we work to get a 
result by early spring on reauthorizing the Higher Education 
Act. This is the digital age, with remarkable inventions 
everywhere we turn, and so today, we are looking at how the 
Federal Government can get out of the way so schools can 
innovate to meet the needs of all of today's college students.
    Senator Murray and I will each have an opening statement. 
Then we will introduce the witnesses. After the witnesses' 
testimony, Senators will each have 5 minutes of questions.
    The world around universities is changing, and so is the 
university student. 2007, just 11 years ago, there was no 
iPhone, a microblogging company named Twitter just gained its 
own separate platform and started to scale globally, and Amazon 
released something called Kindle. It is a world where employers 
need more workers with postsecondary degrees than they ever 
have.
    Georgetown University economists predict we will be 5 
million short in 2020 of people with the necessary 
postsecondary skills. And according to Georgetown, during the 
recovery from the last recession, over 95 percent of newly 
created jobs went to college-educated workers.
    It is also a time when college students are coming to 
college from various stages of life. According to the Lumina 
Foundation, 38 percent of college students today are 25 years 
or older. Fifty-eight percent work while enrolled in school, 
and over a quarter are also raising children. Many graduated 
from high school and immediately joined the workforce, are now 
coming back to school to learn new skills to increase their 
earning potential. Of the 21 million students pursuing higher 
education, 38 percent attend school part-time, up from 31 
percent in 1965.
    Today's hearing is another in a series of examining 
proposals as we work to reauthorize the Higher Education Act, 
and from these hearings, I see a consensus emerging that is 
student-focused. Simpler, more effective regulations that make 
college more affordable and easier for students to apply for 
financial aid and pay back their loans, reducing red tape so 
administrators can spend more time and money on students, 
making sure a degree is worth the time and money students spend 
to earn it, and helping colleges keep students safe on campus.
    Our reauthorization and today's hearing is focused on 
students, therefore. Today, we will look and see how we can 
help colleges provide an education that works for every 
student, whether it is an 18-year-old college freshman, a mom 
returning to school to finish her Bachelor's while also working 
full-time, or a 25-year-old low-income student who is the first 
in his or her family to attend college. In other words, how can 
Congress create an environment for colleges to innovate to meet 
the needs of today's and tomorrow's students?
    As the typical university student has changed into a more 
wide-ranging group, there is a bipartisan consensus that 
colleges need to be able to offer solutions to meet those 
students' diverse needs, flexible class schedules or online 
learning to accommodate for family and work commitments. While 
we may not all agree on all aspects, there are a number of 
proposals from Senators that would help schools offer 
innovative approaches to students.
    For example, Senators Bennet and Rubio have introduced the 
Higher Education Innovation Act, a bill that would create a 
pilot program to allow alternative accreditors to monitor 
students' results, such as completion and getting a job, to 
determine if institutions or new non-college providers could 
receive Federal aid.
    Senators Bennet and Hatch have the Pay for Student Success 
Act. It would allow universities to pilot new strategies for 
improving college completion, then be paid if their strategies 
are successful.
    Senators Kaine, Portman, Brown, Cardin, Gillibrand, Hassan, 
Klobuchar, and Stabenow have introduced the JOBS Act. It would 
allow students to use Pell Grants to pay for short-term skills 
and job training programs that lead to credentialing in 
employment in high-demand fields like healthcare and 
cybersecurity.
    I hope our witnesses today will discuss these and other 
proposals, as well as their own work to help colleges meet the 
needs of students. One of the most promising innovations is 
competency-based learning, which helps students finish a degree 
based on their ability to demonstrate knowledge of the subject 
rather than hours spent in the classroom.
    A good example is a working mom studying at the University 
of Wisconsin who has earned her Associate's degree in nursing, 
wants to get her Bachelor's degree in nursing to increase her 
earning potential. Through the university's new flexible 
option, she is able to earn credits and finish tests and 
assignments on her own time, including between her shift and 
her son's baseball game, to earn her degree sooner.
    I know Senators Bennet, Isakson, Hatch, and Murphy have 
introduced legislation in the past to establish a pilot program 
so Federal aid can more easily follow students to competency-
based programs. Two of our witnesses today are experts in 
competency-based programs, and I hope they will discuss this 
promising approach, as well as how to meet the unique 
challenges these students may face.
    I hope our witnesses also will talk about any barriers that 
the Federal Government has in place that are preventing schools 
from creating innovative programs and solutions. Today's 
college student could look many different ways, and colleges 
are working hard to meet their needs. And what I want to know 
is how can we get the Federal Government out of the way so they 
can meet the students' needs?
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Well, thank you very much, Mr. Chairman.
    I want to welcome all of our witnesses for being here 
today. I look forward to hearing from all of you on ways we can 
make college a reality for all of our students who may not have 
access to the opportunities that higher education can create.
    Providing pathways to college for nontraditional and 
underrepresented students should be a top priority of ours, but 
we also need to consider whether these pathways are accessible 
to all students and whether underrepresented students have the 
tools they need to succeed. I believe we had a productive 
conversation on reducing college costs last week. And Chairman 
Alexander, I was encouraged to hear you say simplification 
shouldn't mean eliminating aid, and the Higher Education Act 
should be student-centered.
    I couldn't agree more, but as we all know, the devil is in 
the details. I am confident we can find a bipartisan solution, 
but it will be challenging, and this is just the beginning. 
After all, if we want to truly help students, we also need to 
improve how we hold colleges accountable for student 
performance and find ways to combat the rising number of 
threats to student safety on campuses, including campus sexual 
assault. And because many of these challenges are intertwined, 
I look forward to working with the Chairman and stopping at 
nothing less than a comprehensive reauthorization of the Higher 
Education Act.
    Now I want to dig a little deeper into the students we are 
hoping to help and the multiple overlapping barriers they have 
to overcome in higher education. Students from low-income 
families are far less likely to even apply to college than 
their wealthier peers. Students who are the first in their 
family to go to college often struggle to navigate the complex 
financial aid system and how to succeed in their courses.
    Students of color face implicit bias and discrimination, 
leading to significant inequities that begin early in our K-12 
system. Veterans, service members are often targeted by 
predatory for-profit colleges that do not prioritize their 
education. Students who are homeless or in our foster care 
system get lost in paperwork and bureaucracy when they try to 
apply for financial aid and housing.
    Working adults need a flexible schedule so they can 
continue to work while earning a degree that provides them with 
the skills that are relevant to their careers, and I could go 
on. So I look forward to a conversation today on how we can 
provide a path to students who may not feel there is a place 
for them in higher education and how we can set up every 
student with the support they need to navigate their program, 
graduate on time, and move into a good career.
    Now I know there will be a lot of discussion today around 
improving access to higher education and the role of innovative 
models of education and how they play. But we also need to make 
sure we have strong guardrails to hold all programs accountable 
for results to make sure that we--our students get a high-
quality instruction and the right support. Federal policy can't 
set up our students to fail.
    We would not want to repeat instances where students were 
misled or cheated by their schools and are now stuck paying 
back loans on a nonexistent or worthless degree. In the worst 
cases, a student's college or training provider may have 
decided they could no longer make a profit and simply closed 
down or collapsed, and those kinds of outcomes are 
unacceptable.
    There are a number of solutions I believe can work in 
conjunction to support students, improve access, and encourage 
responsible innovation. High-quality online programs and 
competency-based education allow students to learn at their own 
pace and should absolutely be a part of this conversation. They 
can give students the flexibility to work on their degree when 
and where they want to, whether that is at home, as the 
Chairman talked about, after their kids have gone to bed, or 
even on their commute to work.
    Many of these schools and programs fail to provide students 
who need the most help with the supports they need to succeed. 
Sometimes that deepens the equity gap we already have.
    All programs must be held accountable for educating 
students and preparing them for jobs in today's changing 
economy. Additionally, colleges and universities should create 
partnerships with high schools to offer dual enrollment 
programs or early college opportunities, giving all students, 
including underrepresented students, a better shot at success.
    We must provide students with the tools to make it to 
graduation day, including in-depth advising, tutoring, career 
counseling, and full financial support to help with their 
childcare and textbooks, and food and housing, and 
transportation. These are just some of the many solutions 
proposed to address gaps in higher education enrollment, 
persistence, and completion. And I hope we can debate the 
merits of each of these thoroughly.
    But as we continue to have these conversations, we cannot 
be allured by innovation for innovation's sake and risk 
allowing a generation of students to be sacrificed in the 
process. With experimentation must come evidence. That is the 
only way to guarantee our students are benefiting from 
innovative programs. It is the only way to truly actually 
protect our taxpayer dollars, and it is the only way to make 
sure students don't simply become guinea pigs for any outside-
the-box idea.
    The Higher Education Act allows for responsible innovation 
with Experimental Sites Initiatives. We should strengthen that 
policy to make sure more schools are participating in 
meaningful experiments, collecting real evidence that shows 
what causes students to succeed.
    Now before we end, I just want to reiterate my concern 
today about the Department of Education's implementation of our 
Nation's K-12 education law, the Every Student Succeeds Act. We 
did include Federal guardrails in ESSA to ensure our most 
vulnerable students, the students who struggle more than their 
peers, are able to get the support they need.
    Chairman Alexander, last week you said if I was concerned, 
you are concerned. And that was encouraging to hear. And I am 
confident we can work together to make sure the Department is 
implementing our bipartisan law as we intended and then get to 
our good faith negotiations on the Higher Education Act.
    Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Murray.
    I have reviewed the Department's approval of plans. I have 
found no instance where they granted a waiver as a part of the 
plan, and I didn't find any instance where they didn't follow 
the law. However, Secretary DeVos has asked and sent a letter 
that will ask to meet with you and with me to discuss it, and I 
will look forward to doing that and following up your concern 
about it.
    I appreciate you bringing it up, and I can tell from each 
of our opening statements that we are listening to each other, 
which is a good--which is a good sign. Sometimes the opening 
statements have an audience of one.
    [Laughter.]
    The Chairman. So, but that is the way the system works, and 
it is terrific.
    I am pleased to welcome our witnesses today. Our first 
witness is Dr. Joe May, chancellor of the Dallas County 
Community College District in Dallas, He is the founding 
president of Rebuilding America's Middle Class, a community 
college consortium that focuses on making the American dream 
possible for everyone.
    He was president of the Louisiana Community and Technical 
College System, of the Colorado Community College System, and 
president of Pueblo Community College. He has been a faculty 
member at Cedar Valley College after completing his doctorate 
at Texas A&M.
    Our next witness is Ms. Donna Linderman, the University 
Dean for Student Success Initiatives at the City University of 
New York. She oversees several CUNY programs that help prepare 
students to succeed and graduate from college. A program called 
Accelerated Study in Associate Programs has doubled graduation 
rates and currently serves 21,000 students seeking Associate's 
degrees at the nine CUNY schools.
    Our third witness is Dr. Barbara Brittingham, president of 
the Commission on Institutions of Higher Education. The 
commission is the regional accrediting agency of the New 
England Association of Schools and Colleges, presiding over 225 
colleges and universities in the Northeast and 11 
internationally. Dr. Brittingham was previously dean of the 
College of Human Science and Services at the University of 
Rhode Island and the founding dean of the College of Education 
at Zayed University in the United Arab Emirates. She served on 
the boards of six national accreditation organizations.
    I turn to Senator Smith to introduce our next witness.
    Senator Smith. Thank you, Chairman Alexander, for 
organizing this hearing and for giving me the opportunity to 
introduce Dr. Bushway, who is here from Minnesota.
    Dr. Bushway has been an innovative leader in higher 
education since she was a faculty member at Metropolitan State 
University in St. Paul in the 1990's, which was founded as a 
university without walls. And she has developed competency-
based education models at Metropolitan State and at Capella 
University, helping to bring accountability and definition to 
this approach based on evidence. At the Federal level, she has 
served as a senior adviser in the United States Department of 
Education, where she worked on education innovation.
    I want to thank you, Dr. Bushway, for being here, and I 
look forward to hearing more about your work.
    The Chairman. Thank you, Senator Smith. And I turn to 
Senator Hassan to introduce our final witness.
    Senator Hassan. Well, thank you, Mr. Chairman and Senator 
Murray.
    Welcome, Mr. Larsson. I am very pleased to welcome Mike 
Larsson to this hearing. Mike comes to us from Boston, where he 
is co-founder and president of Match Beyond, an innovative 
nonprofit focused on ensuring that our most vulnerable have the 
opportunity to earn a college degree and thrive in the 21st 
century economy.
    Now why is the Senator from New Hampshire introducing 
somebody from Boston, you all might ask? Because, as people 
know, Massachusetts and New Hampshire have a fairly robust 
competition going.
    The reason I have the privilege of introducing Mike Larsson 
this morning is that his organization, Match Beyond, partners 
with Southern New Hampshire University's College for America, 
an online, competency-based, direct assessment program that 
awards Associate and Bachelor degrees. College for America 
offers students from all across our country an affordable and 
flexible path for individuals seeking to obtain a degree. And 
really, Southern New Hampshire University and College for 
America have really been visionaries in this area.
    Thanks to Mike's work with Match Beyond, students can 
access College for America programs while, at the same time, 
receiving in-person, wrap-around student supports that help 
them earn their degrees and prepare for their future careers. 
Today, there are over 200 students enrolled, and 70 students 
have already completed the program through this partnership.
    Mike, we look forward to hearing from you this morning 
about the efforts you have taken to strengthen higher education 
as we work to reauthorize the Higher Education Act.
    Thanks for being here.
    The Chairman. Thank you, Senator Hassan. I believe New 
Hampshire is also confused about which state Daniel Webster 
represented in the U.S. Senate.
    Senator Hassan. No confusion. We just take pride and 
ownership there all the way through.
    The Chairman. Good, great. Thank you very much.
    Dr. May, let us begin with you.

    STATEMENT OF JOE MAY, ED.D., CHANCELLOR, DALLAS COUNTY 
           COMMUNITY COLLEGE DISTRICT, DALLAS, TEXAS

    Dr. May. Thank you, Mr. Chairman and Ranking Member Murray, 
Members of the Committee.
    As introduced, my name is Joe May. I am the Chancellor of 
the Dallas County Community College District, and our district 
is comprised of 7 colleges supporting about 150,000 students 
annually, with over 7,000 employees. I am also the president of 
Rebuilding America's Middle Class, a coalition of community 
colleges with the goal of enhancing student success.
    We have all heard the statement that college is not for 
everyone, and what they mean is a 4-year degree is not needed 
by everyone. However, today, almost all jobs require some 
education beyond high school, and HEA should be broadened in 
order to take in the range of eligible programs for Federal 
financial aid to include nontraditional, skill-based programs 
that lead to high-wage jobs that are going unfilled.
    Today, I will discuss three ways collaboration can be used 
to increase college success, innovation, and student success--
employer collaborations, K-12 collaborations, and 
collaborations with noninstitutional education providers.
    First, employer collaborations. I believe this will focus 
on the short-term, sometimes called ``workforce Pell.'' Between 
September 2015 and September 2016, there were 122,000 jobs 
created in North Texas. Sixty-five percent of those jobs 
required higher education, with 32 percent requiring a 
Bachelor's degree or higher, 33 percent requiring a certificate 
or Associate degrees to meet the needs of our community.
    We need flexible, funded short-term workforce Pell that 
supports private partnerships to get students the skills that 
they need through short-term training and education programs, 
work learning programs, and apprenticeships to obtain higher-
paid career opportunities. This can be addressed by allowing 
Pell Grants to pay for career and technical education 
certificates with as few as 150 clock hours of instruction. Our 
strategy should be to grow and not import talent because we 
cannot export poverty.
    Next, K-12 collaborations. We have created collaborations 
between high schools, colleges, universities, employers, 
nonprofits, and individuals that improve upward mobility for 
thousands. It is called the Dallas County Promise. Through 
partnerships that remove friction between high school and 
college, and then college and work, we can achieve our 
workforce needs of 65 percent of high school graduates earning 
a high-value certificate or degree. Better yet, these students 
are graduating debt free.
    Yet as we expand these partnerships and increase the number 
of students enrolling in college while still in high school, we 
actually hurt our scores on the College Scorecard. The current 
Federal reporting system provides no way of recognizing 
successful collaborations between K-12, 2-year and 4-year 
institutions, and employers. And I am sure that we would agree 
that the over 1,800 students that will graduate from Dallas 
high schools annually with an Associate's degree are the very 
embodiment of success. Let us change our reporting requirement 
so that we can recognize the success.
    The noninstitutional provider collaborations. A better-
educated population includes not only baccalaureate graduates, 
but those who graduate with certificates and Associate's 
degrees. This is why so many industry-based organizations are 
offering high-value educational programs. These efforts are 
closely tied to industry standards and lead directly to high-
paying jobs.
    Yet if the program is not at least 600 contact hours and 
not affiliated with an accredited or federally recognized 
institutions, students must pay out-of-pocket for these 
credentials. The Dallas County Community College District, in 
partnership with Straighter Line, a noninstitutional provider; 
the Council for Higher Education Accreditation, CHEA; and the 
Southern Association of Colleges and Schools; were one of eight 
selected in 2016 by DOE to participate in the U.S. Department 
of Education's EQUIP Initiative.
    Students begin their higher education career at Straighter 
Line. They can earn up to 50 percent of their credit toward an 
Associate's degree for little or no cost. Through this 
partnership, students can receive Title IV benefits to take 
courses from Straighter Line and the Dallas County Community 
College District.
    We know that there is a great need for short-term 
certificates in technical fields. We have left our future 
workforce in the hands of a few students who could afford to 
pay out-of-pocket. The new Higher Education Act must prioritize 
career and technical education certificates and degrees and 
provide them the same value as baccalaureate and advanced 
degrees. To keep our economic engine running, we need to 
educate all of our students.
    Thank you for your consideration. I would be happy to 
answer questions.
    [The prepared statement of Dr. May follows:]
                     prepared statement of joe may
    Good morning Chairman Alexander, Ranking Member Murray, and Members 
of the Committee. Thank you for the invitation to speak with you today.
    My name is Joe May, the Chancellor of the Dallas County Community 
College District. Our district is comprised of seven colleges with over 
7,000 employees--we are the largest community college district in 
Texas. In addition, we operate one charter high school and partner with 
school districts on 31 Early College High Schools. Combined, we will 
serve over 150,000 credit and non-credit students this year.
    I have heard people make the following comment: ``College is not 
for everyone''. What they mean is that a 4-year degree is not needed by 
everyone, however, almost all jobs today require some education beyond 
high school.
    The Higher Education Act was created at a time when there were 
great middle-class jobs that required no more than a high school 
diploma. Today, however, we live in a very different world.
    Between September 2015 and September 2016, there were 122,000 jobs 
created in North Texas. Our labor market information office looked at 
these jobs and determined that fully 65 percent required more than a 
high school diploma. In fact, 32 percent required a Bachelor's degree 
or higher while 32 percent required a certificate or an Associate's 
degree.
    In a survey conducted by the Dallas Regional Chamber, over 2,000 
business leaders indicated that their No. 1 concern was finding and 
attracting talent. Their No. 2 concern was retaining talent.
    The Higher Education Act is the primary way that we ensure both 
student access and innovative solutions to ensure that colleges and 
universities are responsive to the needs of individuals, employers, and 
our Nation. We must ensure that higher education is accountable to 
producing the skilled workforce necessary to keep companies in our 
communities.
    While previous versions of the Act have done a relatively good job 
of encouraging individuals to earn a Bachelor's degree, it has not had 
the same impact on encouraging more short-term certificates or 
Associate degrees in technical fields that support the ever-changing 
economy.
    In drafting the new Higher Education Act, there are several 
opportunities to help improve access and innovation. These would 
include areas such as supporting competency-based-education, online 
learning, short-term education programs, partnerships with non-
institutional providers, apprenticeship and work-learn models, and 
creating local partnerships. I will speak on how all these can be 
synthesized into one word--collaboration.
    Access can be improved through collaboration. Innovation can be 
improved through collaboration.
    There are opportunities for a revised Higher Education Act to help 
improve access and innovation. Today I'll discuss three ways that 
collaboration can be used to increase college access and student 
success--Employer Collaborations, K-12 Collaborations, and 
Collaborations with non-institutional education providers.
    By encouraging greater access to innovative solutions, the 
reauthorization of the Higher Education Act has the potential to help 
grow our economy while rebuilding our middle class.
                        Employer Collaborations
    As I mentioned a few moments ago, people searching for jobs should 
be working hand and glove with employers searching for a skilled 
workforce. The current challenge we face as a nation is in bringing 
these two together. While Title IV was designed to encourage the 
attainment of baccalaureate degrees, current law does not allow for 
students to receive Title IV benefits unless they are in a program that 
is at least 600 contact hours in length.
    Perhaps this was acceptable policy when only a quarter of our 
population needed a postsecondary credential, it is not acceptable when 
we have thousands of jobs going unfiled that require less than 1 year 
of education, but more than a high school degree. 65 percent of jobs in 
the workforce require some form of postsecondary education.
    The current system keeps students locked into low-wage jobs because 
they can't afford to take time off to earn an Associate or Bachelor's 
degree. In North Texas alone, getting more people in short-term 
certificate programs would have a huge financial impact on the economy.
    Therefore, by allowing Pell grants to be used to pay for career and 
technical education certificates for programs with as few as 150 clock 
hours of instruction, we can help keep companies in our country, grow 
stronger families and have more viable communities.
    To meet the dynamic pace of our economy, we should match skills 
that are needed in our communities. We need to collaborate, we need 
private sector partnerships. Those relationships should be rewarded, 
not prohibited. By partnering with employers, we can certify work 
eligible programs that meet employer's needs while helping people get 
hired.
    My recommendations are:

        <bullet>  Allow flexibility to leverage private partnerships
        <bullet>  To assist with transparency, require public reporting 
        of job acquisition information on individuals awarded workforce 
        Pell
        <bullet>  Require colleges to publicly report whether 
        individuals who were awarded workforce Pell obtain employment 
        in their field
        <bullet>  Allow Pell to be used for short-term training 
        certificates, for example, 150 clock hours of instruction
        <bullet>  Extend Pell to potentially 14 semesters
                           K-12 Collaboration
    By believing in providing more access and innovation, then we must 
provide more opportunities for all students. We aim to solve the 
problem locally, even if that means working against our own best 
interest.
    I am proud of our K-12 collaboration on the Dallas County Promise. 
The promise is a transformational effort between school districts--
specifically 31 schools--colleges, universities, workforce, and 
communities to increase college completion.
    The Promise is about one thing, and one thing only: Eliminate 
barriers and remove friction in transitions and processes both within 
and between systems. It is about ensuring that there is a network of 
financial, educational, and business resources to ensure that every 
student can succeed.
    Why--you may ask. Because institutions of education face several 
regulatory barriers allowed under the Higher Education Act that impede 
student success through these types of educational innovations. 
Currently, instructions for reporting current high school students 
taking college courses and instructions for first-time-in-college(FTIC) 
students who earned college credits in high school are unclear and 
limiting to student success. These challenges result in skewed 
completion data collection and reporting.
    This innovative use of dual-credit/early college high school is the 
educational framework of the promise program designed to help mitigate 
educational access barriers and ensure reduced time to degree 
completion without the need to incur debt.
    As we continue to expand dual credit, increase the number of early 
college high schools, and grow the Promise program, we need related 
successful outcomes to be recognized through the Federal data 
collection system.
    However, it is difficult to address student success barriers when 
managing administrative limitations and barriers. My recommendation is 
to allow institutions to track all enrolled students regardless of 
student categorization. This would allow reporting systems to actually 
student success by allowing institutions to report current dual 
enrolled students separately in the fall enrollment survey, and 
graduating with a credential and getting a middle-class job.
    These modifications would improve data collection and allow for 
better data analysis that informs policy and practice. It would clarify 
how institutions define high school students taking college courses.
    The impact of this change could be huge, for example in Dallas, we 
anticipate within the next 2 years over 1,800 students will graduate 
high school with an Associate's degree annually. Imagine if cities 
across the Nation were experiencing similar results. This would have a 
tremendous positive impact on our economy. Currently, these students 
are not fully counted toward our graduation and completion rates. They 
do not meet the laws definition of the first-time in college full-time 
student that must enroll in the fall semester to be tracked and counted 
as successful.
    I would urge this Committee to consider reforming Federal 
graduation rates to better reflect community college student success.
    Another critical component of our access strategy is opening our 
doors wide to all students looking for opportunity. This includes our 
DACA students.
    If we care about businesses and communities prospering, then we 
must find a pathway for all our students, that includes students 
identified as Dreamers. I ask that you consider allowing those students 
to be eligible for Pell. DFW, at approximately 36,000, is the largest 
metro area in Texas with DACA recipients. Of the seven colleges that 
comprise DCCCD, seven are HSI. Today, 65 percent of jobs in Dallas 
county require a degree or certification beyond high school. To keep 
our economic engine running we need to educate and train all our 
students.
    My recommendations are:

        <bullet>  Allow institutions to track all enrolled students 
        regardless of student categorization
        <bullet>  Allow for new definitional and instructional language 
        that addresses the unclear existing IPEDS definitions and 
        instructions
        <bullet>  Allow community colleges to report current dual 
        enrolled students separately in the IPEDS fall enrollment 
        survey
        <bullet>  Allow community colleges to report current dual 
        enrolled students separately in the IPEDS 12-month enrollment 
        survey
        <bullet>  Allow DACA recipients to be eligible for Pell
                 Non-Institutional Education Providers
    The Higher Education Act's existing policies do not align well with 
non-traditional partnerships, and ultimately the students pay the cost.
    In 2015 The U.S. Department of Education initiated an experimental 
program designed to accelerate and evaluate innovation through 
partnerships between colleges and universities and non-traditional 
providers of education. The goals of EQUIP are straight forward-provide 
more Americans with the skills, knowledge, and training they need for 
the jobs of today and tomorrow. This is accomplished by breaking down 
the silos between organizations that almost never collaborate, despite 
the fact that they often have a shared mission.
    The Dallas County Community College District, a regionally 
accredited community college system, in partnership with 
StraighterLine, a non-accredited, non-institutional provider of 
postsecondary education proposed to the US Department of Education an 
initiative to work together to improve college access while lowering 
both the educational delivery cost and the cost to students.
    To ensure quality, we proposed to engage the Council for Higher 
Education Accreditation's (CHEA) Quality Platform and DCCCD's 
accreditor, the Southern Association of Colleges and Schools. As a 
result, this is one of only eight initiatives selected in 2016 by the 
Department of Education to participate in the Experimental Sites 
Initiatives Educational Quality through Innovative Partnerships or 
EQUIP initiative.
    Through this partnership, 600 students will have the opportunity to 
receive an Associate in Science in Business or an Associate in Arts in 
Criminal Justice for little or no out of pocket cost.
    The partnership creates a pathway for students to earn an Associate 
degree by taking over 50 percent of their courses through 
StraighterLine's online platform.
    This partnership also allows StraighterLine students to receive 
Title IV benefits through DCCCD.

        1. Because of the low cost of DCCCD and StraighterLine courses, 
        students can complete their degree without incurring debt.
        2. The quality of the program is assured by the following 
        groups:
          a. U.S. Department of Education
          b. Council on Higher Education Quality Platform (CHEA)
          c. Southern Association of Colleges and Schools

    As we often discover when attempting to implement innovation 
solutions for students and employers, both existing policies and 
regulations make implementation a challenge. In fact, StraighterLine 
was forced to change a proven business model to accommodate current 
Title IV requirements.
    It has required a multi-step approval process between 
representatives in the Department of Education in Washington and by the 
regional office. Sometimes, it was unclear who was making the 
decisions. We should focus on accountability of results, not 
accountability of processes. Innovative programs like this should 
include innovative processes--outside of the bureaucratic norm.
    My recommendations are:

        <bullet>  A flexible act that facilitates collaboration among 
        non-institutional providers
        <bullet>  Prioritize career and technical education 
        certificates and degrees, and provide them the same value as 
        baccalaureate and advanced degrees

    Our current higher education policies and regulations were designed 
at a time when institutions did not collaborate. We need a higher 
education act that facilitates collaboration.
    The Act must encourage freedom and flexibility to innovate. It must 
ensure accountability that is measured by results, not by processes.
    The new higher education act must prioritize career and technical 
education certificates and degrees and provide them the same value as 
baccalaureate and advanced degrees. Businesses are pleading for higher 
education to fill their talent pipelines, but they have become 
frustrated at a system that is too slow and unresponsive.
    To keep our economic engine running we need to educate and train 
all our students. Thank you for listening to my thoughts as to how we 
can make this a reality.
    Thank you for your consideration and I would be happy to answer any 
questions.
                                 ______
                                 
                     [summary statement of joe may]
    We've all heard people make the following comment: ``College is not 
for everyone''. What they mean is a 4-year degree is not needed by 
everyone, however, almost all jobs today require some education beyond 
high school. The Higher Education Act was created at a time when there 
were great middle-class jobs that required no more than a high school 
diploma. Today, we live in a very different world. We need a higher 
education system that values career and technical education in a manner 
that the current Act does not.
    Access can be improved through collaboration. Innovation can be 
improved through collaboration. I'd like to discuss three ways that 
collaboration can be used to increase college access and student 
success-Employer Collaborations, K-12 Collaborations, and 
Collaborations with non-institutional education providers.
    Today's economy demands a flexible and trained workforce. We need 
the flexibility to leverage private partnerships to get students 
skilled through short-term training, work-learn programs, and 
apprenticeships. This requires flexible and funded Short-term or 
Workforce Pell that allows more students to obtain higher paid career 
opportunities through short-term certifications.
    In Dallas, we realize that we can't wait and only partner with 
employers. We created a transformative collaboration, between high 
schools, universities, employers, non-profits, and individuals that are 
dramatically improving upward mobility for thousands of our students. 
We call it the Dallas County Promise. As we continue to expand dual 
credit and grow the program, we hurt our scores on the White House 
Scorecard. I am asking that we recognize in our reporting systems 
actual student success.
    The economy has changed, and there is a demand for more individuals 
with certificates and Associate's degrees. This is why so many for-
profit, not-for-profit, and industry-based organizations that are not 
affiliated with any institutions of higher education are offering more 
and more educational programs and services.
    Our current higher education policies and regulations were designed 
at a time when institutions did not collaborate. We need a higher 
education act that facilitates collaboration. The new higher education 
act must prioritize career and technical education certificates and 
degrees and provide them the same value as baccalaureate and advanced 
degrees. To keep our economic engine running we need to educate and 
train all our students. Thank you for listening to my thoughts as to 
how we can make this a reality.
                                 ______
                                 
    The Chairman. Thank you, Dr. May.
    Ms. Linderman, welcome.

   STATEMENT OF DONNA LINDERMAN, UNIVERSITY DEAN FOR STUDENT 
SUCCESS INITIATIVES, CITY UNIVERSITY OF NEW YORK, NEW YORK, NEW 
                              YORK

    Ms. Linderman. Thank you very much.
    Good morning, Chairman Alexander, Ranking Member Murray, 
and Members of the Committee. I am Donna Linderman, University 
Dean for Student Success Initiatives at the City University of 
New York, the Nation's largest urban public university system, 
serving almost 550,000 students across the city of New York at 
our 24 institutions.
    I am pleased to join you today to speak about one of our 
most innovative and effective initiatives that is changing the 
degree success of thousands of our students. Founded in 2007 
with support from the New York City Center for Economic 
Opportunity, Accelerated Study in Associate Programs, or ASAP, 
aims to graduate at least 50 percent of students within 3 
years.
    In 2007, CUNY's overall 3-year community college graduation 
rate was only 13 percent and 24 percent for students who 
entered with no remedial needs. To date, ASAP has served 33,800 
students and has an average 3-year graduation rate of 53 
percent versus 25 percent for similar students.
    ASAP offers a robust package of resources and services 
designed to help students gain and maintain academic momentum. 
ASAP financial resources include tuition waivers for students 
with a gap need between financial aid and tuition and fees, 
textbook assistance, and unlimited New York City Metro cards. 
We offer a structured pathway that includes required full-time 
enrollment, locked schedule first-year courses, consolidated 
course schedules, immediate and continuous enrollment in 
remedial courses, and winter and summer course-taking 
opportunities.
    Our integrated support services include comprehensive and 
highly personalized advisement, tutoring, career development 
services, and prematriculation engagement. ASAP enrolls 
students who are representative of the CUNY colleges they 
attend, largely low-income students of color with some initial 
remedial need. Thirty-three percent of our students are black, 
44 percent Hispanic, 83 percent receive Pell--or New York State 
TAP, 79 percent receive Pell, and 74 percent enter with 
remedial needs.
    ASAP operates as a consortium made up of CUNY academic 
affairs and nine partner colleges. The program is committed to 
use of data for evaluation and program management purposes and 
operates on a continuous improvement model. ASAP has been 
rigorously evaluated and found to be highly effective. Our 
average 3-year graduation rate, as mentioned, is 53 percent 
versus 25 percent for similar students.
    By race, ethnicity, gender, and Pell status, all subgroups 
of ASAP students met or nearly met our 50 percent graduation 
target. ASAP also was found to reduce gap needs in graduation 
rates between Hispanic and white students and black and white 
students, especially for males. Six years after beginning, 64 
percent of ASAP students have earned either an Associate or a 
Bachelor's degree, or both, versus only 43 percent for 
comparison group students.
    NBRC conducted a random assignment study of ASAP, 5-year 
study, and found that the program's effects were unparalleled, 
with nearly double the graduation rate for similar students. 
Henry Levin and Emma Garcia from the Teachers College Center 
for Benefit-Cost Studies in Education conducted a comprehensive 
cost study of ASAP and found that, despite higher upfront 
costs, ASAP is both cost effective and cost beneficial to the 
taxpayer.
    ASAP will expand to 25,000 students next year, with support 
from the city and State of New York. Our expansion will include 
service to more STEM majors and a college-wide expansion at 
Bronx Community College in New York City's poorest borough that 
will serve almost all full-time freshmen at scale.
    ASAP now makes up 30 percent of all CUNY Associate full-
time freshmen. Next year, we will be at 50 percent. CUNY 
expects that, at scale, the ASAP program will help double the 
overall 3-year Associate degree completion rate for the 
university from a 2013 baseline of 18 percent to 36 percent for 
the entering 2019 full-time cohort, making it one of the 
highest Associate degree graduation rates in the country.
    CUNY has also started to expand into the baccalaureate 
space. John Jay College Accelerate, Complete, and Engage is 
modeled on ASAP and is already demonstrating significant 
improvement in degree momentum and narrowing of achievement 
gaps between similar students and A students.
    ASAP is also being replicated in other states. Three Ohio 
community colleges have adopted the ASAP model. Early findings 
from NBRC study of the Ohio demonstration indicate strong 
fidelity to the model and promising early outcomes. CUNY is 
also supporting Skyline Community College in Valhalla, New 
York--excuse me, in San Bruno, California, and Westchester 
Community College in Valhalla, New York, in the SUNY system to 
replicate ASAP.
    Federal policy would be very helpful to support community 
colleges to adopt evidence-based models like ASAP to improve 
graduation rates. Colleges need resources to create 
comprehensive programs like ASAP that integrate rigorous 
evaluation and use of data to measure success.
    I urge the Senate to consider legislation like the House's 
Community College Success Act and others that were mentioned 
earlier by the Chairman that propose discretionary grant funds 
and support for colleges to replicate strong, evidence-based 
models with innovation.
    Thank you very much for your interest in our work, and I 
look forward to any questions you may have.
    [The prepared statement of Ms. Linderman follows:]
                 prepared statement of donna linderman
    Good morning Chairman Alexander, Senator Murray, and Members of the 
Committee. I am Donna Linderman, University Dean for Student Success 
Initiatives and the Executive Director of CUNY Accelerated Study in 
Associate Programs (ASAP) in the City University of New York Office of 
Academic Affairs. I am pleased to join you to speak about one of our 
most innovative and successful initiatives that is changing the degree 
success of thousands of our Associate degree-seeking students. ASAP has 
become a national model recognized for its outstanding impacts to 
improve the graduation rates of CUNY students and make rigorous use of 
data to demonstrate success.
    City University of New York is the largest urban public university 
in the country, with an enrollment of nearly 275,000 degree seeking 
students and 250,000 adult/continuing education students across 24 
institutions across New York City. We are deeply committed to ensuring 
that our students receive an affordable, first rate education and have 
every opportunity to achieve their education goals and increase their 
social mobility. ASAP has proven to be an outstanding vehicle for 
realizing these goals.
                              ASAP History
    Founded in 2007 with support from the New York City Center for 
Economic Opportunity (Now NYC Opportunity), ASAP aims to graduate at 
least 50 percent of Associate seeking students within 3 years through 
provision of comprehensive support services and financial resources 
that remove barriers to full-time study, build student resiliency and 
engagement, and support timely degree completion. At ASAP inception, 
CUNY's overall 3-year community college graduation rate was 13 percent, 
similar to the national urban community college rate of 16 percent, and 
24 percent for fully skills proficient students with no remedial needs. 
We believed we could do much better and with the support of the Mayor, 
CUNY created a comprehensive, structured model designed to help 
students gain and maintain academic momentum with integrated and 
structured supports. ASAP has consistently not only met, but exceeded 
its ambitious graduation goals. To date, ASAP has served 33,800 
students across 11 cohorts since inception and has an average 3-year 
graduation rate of 53 percent vs. 25 percent of similar comparison 
group students.
    The program has grown from an initial enrollment of 1,132 students 
at six CUNY community colleges to an expected FY18 enrollment of 21,400 
students across nine CUNY colleges (Borough of Manhattan Community 
College, Bronx Community College, Hostos Community College, 
Kingsborough Community College, LaGuardia Community College, 
Queensborough Community College, College of Staten Island, Medgar Evers 
College, and New York City College of Technology) ASAP is expanding 
25,000 students in FY19 thanks to generous support from the city and 
State of New York and ASAP students will make up 50 percent of all CUNY 
full-time Associate-seeking freshmen. Additionally, the program model 
is being replicated in a CUNY baccalaureate setting and at several 
community colleges around the country.
                    Program Design and Core Elements
    ASAP offers a robust package of resources and services designed to 
help students gain and maintain academic momentum and provide a 
connected community of staff and peers. ASAP financial resources 
include tuition waivers for students in receipt of financial aid with a 
gap need between award and tuition and fees, textbook assistance, and 
unlimited New York City Transit MetroCards to allow them to travel 
freely between work, school and home.
    We offer a structured pathway that includes required full-time 
enrollment every semester, block scheduled first-year courses with 
fellow ASAP students, consolidated course schedules (i.e.: am, 
afternoon, evening), immediate and continuous enrollment in any 
required developmental education courses, and winter and summer course-
taking. Integrated support services include comprehensive and 
personalized advisement, tutoring and supplemental instruction, career 
development services, and early pre-matriculation engagement 
opportunities to build a connected community.
    One of the hallmarks of the ASAP program, is close, personalized 
attention by caring staff members. Every ASAP student is assigned to a 
specific advisor who meets with their students, currently caseloads of 
no more than 150 students with whom they meet regularly. Meetings are 
conducted in both individual and group formats, and advisors provide 
academic and interpersonal support. Students consistently talk about 
the importance of the close bonds they form with their advisors and 
cite these relationships as essential to their success. Frequent 
contact between faculty and advisors ensures that students requiring 
additional support are referred to tutoring or counseling in a timely 
manner. A 2013 study found that the number of ASAP student advisor 
meetings had a significant impact on timely graduation (Kolenovic, 
Lindermnan & Karp, 2013).
    ASAP students also have opportunities to develop their leadership 
skills and enhance connected community. The ASAP Student Leader Program 
provides an opportunity for ASAP students to build leadership skills 
and support campus-based recruitment for ASAP. Every year, a set of 
Student Leaders is selected from each college to participate in a 
series of interactive cross-site workshops that help students develop 
new skills in the areas of team building, public speaking, and self-
assessment. The ASAP Peer Mentor Program provides an opportunity for 
advanced ASAP students or recent alumni to support key ASAP advisement 
and career development activities. Peer Mentors participate in a series 
of cross-campus training sessions to develop leadership skills; improve 
communication, advocacy, and problem-solving skills; learn group 
facilitation strategies; and, strengthen their own ties to ASAP and the 
campus community.
                 ASAP Students and Eligibility Criteria
    ASAP enrolls students who are representative of the CUNY colleges 
they attend and are largely low-income students of color with some 
initial developmental education needs. A current profile of students 
finds the following characteristics: Race: 12 percent Asian, 33 percent 
Black, 44 percent Hispanic, 11 percent White; Mean Age: 21; Gender: 57 
percent female, 43 percent male; Pell or NYS TAP Receipt: 83 percent; 
Initial Remedial Need: 74 percent.
    ASAP sets ambitious enrollment targets each year and broadly 
recruits students as they are admitted to CUNY partner colleges or 
currently enrolled students who meet the following criteria. Students 
are recruited until all program slots are full:
    -Eligible for New York City resident rate tuition (community 
colleges) or New York State resident rate tuition (all other colleges);
    -Agree to study full-time (minimum 12 credits a semester; 15 
recommended) in an ASAP approved Associate major (most majors are 
offered);
    -Are deemed fully skills proficient or have no more than two 
outstanding developmental course needs in reading, writing, and math 
based on CUNY Assessment Test scores (Note: Students with more than two 
developmental course needs are guided to ASAP's sister program CUNY 
Start, which provides intensive instruction for up to one semester at 
low cost. Students are then welcomed into ASAP the following semester);
    -Have completed the Free Application for Federal Student Aid 
(FAFSA) and New York Stat Tuition Assistance Program (TAP) application. 
Students must apply for financial aid each year and accept any need-
based grant aid offered; and
    -If a continuing or transfer students, have no more than 15 college 
credits and a minimum GPA of 2.0.
    The program also conducts extensive citywide outreach across the 
New York City Department of Education, community based organizations, 
city agencies, and affiliated CUNY pre-matriculation programs. 
Prospective students, counselors who work with them, and family members 
are all targeted to ensure all stakeholders are aware of ASAP benefits 
and opportunities. All promotion and recruitment materials are 
available online and in print form, and ASAP also has a broad social 
media and marketing presence.
                  Program Organization and Management
    ASAP operates as a consortium of the CUNY Office of Academic 
Affairs and a set of nine partner colleges that each have a set of 
specific roles and responsibilities that maximize program success and 
effective operations. Each college has a fully dedicated ASAP program 
team that delivers led by an experienced director, an Associate 
director, a set of trained advisors with a maximum caseload of 150 
students, a career specialist, program coordinators, and administrative 
support staff. College teams deliver recruitment, direct services to 
students, support program integration across campus units, and monitor 
student data. The CUNY Office of Academic Affairs provides overall 
administrative support, fiscal oversight, research, evaluation and data 
management, and program wide staff training and professional 
development. The program is deeply committed to use of data for 
evaluation and program management purposes and operates on a continuous 
improvement model. Staff across the program work toward a common set of 
benchmarks to help reach overall program graduation goals and use a 
standard data management system that is used to produce reports and run 
queries to measure program efficacy at all levels.
    ASAP benchmarks that pull from CUNY official data systems and the 
ASAP data base are assessed on a timed basis and include: Enrollment 
and progress toward enrollment targets, college and program retention, 
credits attempted/earned, GPA, movement through developmental education 
if required, skills proficiency, graduation(2, 2.5 & 3 year), contacts 
with advisor (number, type, and code), participation in career 
development activities, contacts with the ASAP Career Specialist, 
contacts with peer mentors, satisfaction and experience in first year 
(survey), future plans, experience and satisfaction at exit (survey), 
advisement support level, exit code and exit date. ASAP staff meet 
regularly within partner colleges and across CUNY to review data, share 
best practices, and discuss and address common challenges.
                               ASAP Costs
    The comprehensive nature of the ASAP model has higher upfront 
costs, which have declined dramatically as the program has expanded and 
fixed costs are spread over larger cohorts of students. Currently the 
additional ASAP cost per student per year is $3,456 over and above 
usual CUNY FTEs. This cost is expected to decline an additional $100 
per student per year in FY19 when the program reaches planned scale. As 
noted in the next section, despite higher upfront costs, ASAP has been 
found to be both cost effective and cost beneficial by external 
evaluators.
                  ASAP Research and Evaluation Agenda
    ASAP has been rigorously evaluated since inception and has been 
found to be highly effective. ASAP outcomes as evaluated by the ASAP 
Research and Evaluation team. To date, across eight cohorts that have 
graduated, ASAP has an average 3-year graduation rate of 53 percent vs. 
24 percent for matched comparison group students. The most recent 
graduating ASAP cohort that entered in fall 2014 (N=2,278 students) had 
a 3-year graduation 55 percent vs. 28 percent for comparison group 
students.
    After 3 years, 46 percent of ASAP students with developmental needs 
(who make up 74 percent of all ASAP students) and 61 percent of fully 
skills proficient ASAP students have graduated vs. 20 percent of non-
ASAP comparison students with developmental needs and 33 percent of 
fully skills proficient non-ASAP comparison students.
    Examining ASAP impact by race/ethnicity, gender and Pell status 
across cohorts: All subgroups of students met or nearly met the 50 
percent 3-year graduation rate goal; ASAP had a significant and 
positive effect on 3-year graduation rates for all subgroups; and ASAP 
reduced gaps in graduation rates between Hispanic and white and Black 
and white students, especially for male students (Strumbos & Kolenovic, 
2016),
    When longer-term outcomes are considered, ASAP students are more 
likely to earn a degree. Six years after beginning, 64 percent of ASAP 
students had earned either an Associate or Baccalaureate degree (or 
both) vs. 43 percent of comparison group students. In addition, more 
ASAP students had transferred to a baccalaureate program(59 percent vs 
50 percent) and more ASAP students had earned a Bachelor's degree (27 
percent vs. 18 percent). ASAP students also earn degrees more quickly 
than other students (Strumbos & Kolenovic, 2017).
    MDRC conducted a 5-year random assignment study of ASAP and found 
the program's effects are ``unparalleled in large-scale experimental 
evaluations of programs in higher education'' (MDRC, 2015) with nearly 
double the graduation rate for similar students. In a follow-up study 
of the random assignment study cohort 6 years after program entry MDRC 
found ``that ASAP both continues to increase graduation rates and 
enables some students to earn their degrees faster than they would have 
otherwise'' (MDRC, 2017).
    Drs. Henry Levin and Emma Garcia from the Teachers College, 
Columbia University Center for Benefit Cost Studies in Education 
conducted a comprehensive cost study of ASAP and found the program is 
both highly cost effective and cost beneficial. Despite having higher 
up-front costs, the average cost per ASAP graduate is lower than for 
comparison group graduates. ASAP also realizes large financial returns 
for both the taxpayer and the student in the form of increased tax 
revenues, social service savings, and increased lifetime earnings 
(Levin & Garcia, 2018).
                       ASAP Expansion and Impact
    Thanks to generous support from the city and State of New York, 
ASAP will expand to 25,000 students by academic year 2018/19. ASAP 
expansion will have a special focus on serving more STEM majors to 
ensure that more low-income, minority New Yorkers have every 
opportunity to graduate with in-demand skills across a broad array of 
employment sectors.
    In addition to expanding ASAP enrollments at individual partner 
colleges, CUNY is supporting a campus-wide expansion of ASAP at Bronx 
Community College. This ambitious undertaking will aim to enroll most 
incoming first-time, full-time freshmen into an ASAP pipeline by 
academic year 2018/19 with the goal of graduating at least 50 percent 
of students within 3 years. This undertaking has the potential of not 
only changing the lives of thousands of low-income minority students 
who make up the majority of Bronx, but the future economic prospects of 
whole families and entire communities in the City's poorest borough.
    In addition to serving more Associate degree-seeking students, ASAP 
is also beginning to broaden its scope to meet the needs of Bachelor's 
degree-seeking students. CUNY received funding from the Robin Hood 
Foundation, NYC Opportunity and the Jewish Foundation for the Education 
of Women to adapt the ASAP model to a baccalaureate setting at John Jay 
College of Criminal Justice. John Jay Accelerate, Complete, and Engage 
(ACE) launched in fall 2015 with a pilot cohort of 250 students with 
plans to double four and 5-year Bachelor's attainment rates. A second 
cohort was added this past fall.
    Analysis of most recent outcomes for the first ACE cohort, 
demonstrate they are making excellent progress toward timely 
graduation. Fall 2015 ACE students have higher retention rates and take 
and earn more credits than similar John Jay comparison group students. 
As of fall 2017, 65 percent of the fall 2015 ACE cohort are on track to 
graduate within 4 years (based on credit accumulation and academic 
standing) moving into their third year of study vs. 37 percent of 
matched comparison students. Additionally, achievement gaps are 
significantly narrowed between race subgroups in the areas of 
retention, credits attempted/earned, and being on track to graduate 
within 4 years.
    Importantly, ASAP is having a major impact on CUNY's overall 
Associate degree graduation rates. In FY18, ASAP students comprise 30 
percent of all CUNY full-time Associate seeking freshmen. In FY19, they 
will comprise 50 percent of the total pool. ASAP growth and strong 
outcomes has helped CUNY significantly increase overall 3-year 
Associate degree completion rates over the past few years from 10 
percent in 2006 to a current high of 19 percent. CUNY expects that at 
scale, ASAP will help CUNY double the overall CUNY 3-year Associate 
graduation from a 2013 baseline of 18 percent to 36 percent for the 
2019 entering full-time freshmen cohort. These bold goals are further 
animated by CUNY's recently launched strategic framework that commits 
the entire University to embracing a culture of completion for current 
and prospective students.
                  Replication of ASAP Outside of CUNY
    ASAP has received much interest from colleges across the country 
and is being replicated in several states. Through a partnership with 
the Ohio Department of Higher Education, Great Lakes Great Lakes Higher 
Education Corporation, and MDRC, CUNY ASAP provided technical 
assistance to three Ohio community colleges that implemented programs 
based on the ASAP model. As part of the Ohio ASAP demonstration 
project, CUNY ASAP staff worked with Cincinnati State Technical and 
Community College, Cuyahoga Community College, and Lorain County 
Community College for 2 years (2014-2016) to support the startup and 
implementation of their ASAP-like programs. MDRC is conducting a 
random-assignment study of the Ohio demonstration project. Early 
findings published by MDRC (2016) indicate that students in the Ohio 
programs based on the ASAP model have higher enrollment rates and 
credit attainment than students in the control group. These short-term 
impacts are similar to those the MDRC found in their evaluation of ASAP 
at the same point in time.
    Effective fall 2017, CUNY ASAP is providing technical assistance to 
support replication efforts in two additional states--New York and 
California--through a grant from the Laura and John Arnold Foundation 
``Moving the Needle'' initiative. Westchester Community College in 
Valhalla, New York and Skyline Community College in San Bruno, 
California will develop their own ASAP-like programs for launch in 
academic year 2018-2019. Skyline College will launch their Promise 
Scholars program at scale, serving an estimated 500 eligible full time 
first time students, while Westchester Community College will launch 
their Viking ROADS (Resources for Obtaining Associates Degree & 
Success) with a pilot cohort of 100 students.
                   Recommendations for Federal Policy
    We believe ASAP demonstrates the power of comprehensively 
supporting Associate-degree seeking students, especially 
underrepresented minority and low-income students, at all stages of 
their degree pathway. An upfront investment in their success has 
yielded astonishing impacts on the degree attainment rates of our 
students and is helping them improve their future economic prospects. 
ASAP is part of CUNY's proud legacy as a powerful engine of social 
mobility, as demonstrated by a recent study by a group of esteemed 
economists led by Raj Chetty at Stanford. Their 2017 study found that 
CUNY moves more students from the lowest income quintile into the 
middle class and beyond than multiple Ivy league colleges combined. We 
are proud to have the opportunity to expand this sort of impact through 
ASAP to see many more CUNY students improve their economic mobility in 
the coming years by earning a CUNY degree.
    We are also honored to have ASAP serve as a model for colleges and 
policymakers who wish to improve the degree attainment rates of 
students who all too frequently struggle realize their higher education 
goals. This should be mission critical to all levels of higher 
education and government and Federal policy would be incredibly 
important to ensure it happens.
    It is essential that community colleges have necessary resources 
and are encouraged to adopt evidence-based models to improve graduation 
rates to help more low-income students attain degrees. In an era on 
constrained resources and increased accountability, it is important to 
invest in what works. A group of House Democrats introduced the 
Community College Success Act last year that proposes a discretionary 
grant program to support replication of ASAP-like models that fully 
integrates comprehensive supports for students with rigorous use of 
data for program management and evaluation purposes.
    Colleges need the resources to create comprehensive programming and 
to infuse rigorous evaluation and use of data to demonstrate success, 
which will ensure Federal funds are well used. This sort of support 
should be seriously considered across both the House and Senate.
    In closing, I would like to thank the Committee for your interest 
in ASAP and in supporting higher education innovation that aims to help 
many more students of all backgrounds and means earn a college degree. 
Helping them realize this dream is a collective responsibility across 
all levels of society and it is an honor to be part of the group of 
stakeholders who are actively working toward this goal.
    Thank you.
                                 ______
                                 
                 [summary statement of donna linderman]
    Good morning Chairman Alexander, Senator Murray, and Members of the 
Committee. I am Donna Linderman, University Dean for Student Success 
Initiatives at the City University of New York. I am pleased to join 
you to speak about one of our most innovative initiatives that is 
changing the degree success of thousands of our students.

    II-ASAP History and Background
    Founded in 2007 with support from the New York City Center for 
Economic Opportunity, Accelerated Study in Associate Programs (ASAP) 
aims to graduate at least 50 percent of students within 3 years.
    In 2007, CUNY's overall 3-year community college graduation rate 
was 13 percent and 24 percent for students with no remedial needs. To 
date ASAP has served 33,800 students across 11 cohorts and has an 
average 3-year graduation rate of 53 percent vs. 25 percent for similar 
students.

    II--Program Design and Core Elements
    A-ASAP offers a robust package of resources and services designed 
to help students gain and maintain academic momentum.

        a. Financial Resources: ASAP financial resources include 
        tuition waivers for students with a gap need between financial 
        aid and tuition and fees, textbook assistance, and unlimited 
        New York City MetroCards.

        b. Structured Pathway: We offer a structured pathway that 
        includes required full-time enrollment, block scheduled first-
        year courses, consolidated schedules (i.e.: am, afternoon, 
        evening), immediate and continuous enrollment in remedial 
        courses, and winter and summer courses.
        c. Integrated Student Support Services include comprehensive 
        and personalized advisement, tutoring, career development 
        services, and pre-matriculation engagement

    B-Students Served and ASAP Eligibility
        a. ASAP enrolls students who are representative of the CUNY 
        colleges they attend, largely low--income students of color 
        with some initial developmental education needs: 33 percent 
        Black, 44 percent Hispanic; Pell or NYS TAP Receipt: 83 
        percent; Initial Remedial Need: 74 percent

    C-Program Management Model
        a. ASAP operates as a consortium made up of CUNY Academic 
        Affairs and nine partner colleges.
        b. The program is committed to use of data for evaluation and 
        program management purposes and operates on a continuous 
        improvement model.

    III-ASAP Research and Evaluation Agenda and Program Outcomes
        A. ASAP has been rigorously evaluated and found to be highly 
        effective.
        B. Key Quasi-Experimental Findings:

         a. Average 3-year graduation rate of 53 percent vs. 25 percent 
        for similar students
         b. By race/ethnicity, gender and Pell status, all subgroups 
        met or nearly met the 50 percent 3-year graduation goal; ASAP 
        also reduced gaps in graduation rates between Hispanic and 
        white and Black and white students
         c. Six years after beginning, 64 percent of ASAP students had 
        earned either an Associate or Baccalaureate degree (or both) 
        vs. 43 percent of comparison group students

    C. Key External Findings:
        a. MDRC conducted a 5-year random assignment study of ASAP and 
        found the program's effects are ``unparalleled'' with nearly 
        double the graduation rate for similar students.
        b. Henry Levin and Emma Garcia from the Teachers College 
        conducted a comprehensive cost study of ASAP and found that 
        despite higher upfront costs, the program is both cost 
        effective and cost beneficial.

    V-ASAP Expansion and Replication
        A. ASAP will expand to 25,000 students by academic year 2018/19 
        with support from the City and State of New York. ASAP 
        expansion will serve more STEM majors and includes a college-
        wide expansion at Bronx Community College that will serve most 
        full-time freshmen at scale.
        B. Estimated Impact on Overall CUNY Associate Degree Completion

         a. ASAP now makes up 30 percent of all CUNY full-time 
        Associate freshmen, next year will be 50 percent
         b. CUNY expects that ASAP at scale will help double the 
        overall 3-year Associate graduation from a 2013 baseline of 18 
        percent to 36 percent for the 2019 full-time freshmen cohort.

        C. Expansion into Baccalaureate Space
         a. CUNY has started to expand ASAP into the baccalaureate 
        space. John Jay College Accelerate, Complete and Engage (ACE) 
        modeled on ASAP is demonstrating significant improvement in 
        degree momentum and narrowing of achievement gaps.

    C-Replication Work Outside CUNY
        a. ASAP is being replicated in other states. Three Ohio 
        community colleges (Lorain, Cuyahoga, and Cincinnati State) 
        have adopted the ASAP model. Early findings from MDRC's study 
        of the Ohio demonstration indicate strong fidelity to the ASAP 
        model and promising early outcomes.
        b. CUNY is also supporting Skyline Community College in San 
        Bruno, CA and Westchester Community College in Valhalla, NY 
        (SUNY) to replicate ASAP.

    VI-Recommendations for Federal Policy
        A. Federal policy could be very helpful to support for 
        community colleges to adopt evidence-based models to improve 
        graduation rates.
        B. Colleges need the resources to create comprehensive programs 
        like ASAP that integrate rigorous evaluation and use of data.
        C. I urge the Senate to consider legislation like the House's 
        Community College Success Act that proposes a discretionary 
        grant program to support replication of ASAP-like models.

    Thank you for your support and interest in the work we are doing at 
CUNY.
                                 ______
                                 
    The Chairman. Thank you, Ms. Linderman. Dr. Brittingham, 
welcome.

STATEMENT OF BARBARA BRITTINGHAM, PH.D., PRESIDENT, COMMISSION 
ON INSTITUTIONS OF HIGHER EDUCATION, NEW ENGLAND ASSOCIATION OF 
        SCHOOLS AND COLLEGES, BURLINGTON, MASSACHUSETTS

    Dr. Brittingham. Thank you very much.
    Chairman Alexander, Ranking Member Murray, and Members of 
the Committee, thank you for this opportunity. We are proud 
that the HELP Committee has a Member from each of our six New 
England States, reflecting the commitment of our communities to 
high-quality higher education.
    The history of American higher education is in many ways a 
history of innovation to increase access and bring higher 
education closer to the economy. Recently, accreditation has 
embraced distance education, competency-based education, and 
dual enrollment programs. Now, through EQUIP, accreditors are 
expanding to boot camps and a wider variety of third-party 
providers.
    Today, I want to address four matters. First, quality in 
distance education. Our commission has found that in evaluating 
the quality of distance education the following are essential--
institutional capacity; institutional control over academics, 
admission, and support services; faculty preparation and 
professional development; and monitoring student progression.
    Distance education is no longer new. It is time to give 
accreditors more flexibility in how distance education is 
evaluated, specifically by allowing accreditors to determine 
when distance education should be considered a substantive 
change. I would be happy to provide you with an example.
    Second, quality in competency-based education, or CBE. 
Going forward, much of lifelong learning will focus on 
competencies relevant to work often provided in short-term 
packages. In 2015, the seven regional accreditors issued a 
statement on competency-based education, and based on our 
commission's experience with CBE, the following are key 
considerations for Congress in ensuring quality competency-
based programs.
    One, competency means competent. Students should be 
required to reach a level of achievement that is excellent or 
near excellent. Think of nurses and airline pilots. CBE 
represents a higher level of promise from the college or 
university about the quality of its graduates. Employers must 
find the competencies and their assessments to be trustworthy. 
They must know what a graduate can reliably do.
    Two, competencies must have currency through credit-hour 
equivalencies. Imperfect as it is, the credit-hour is currently 
the only quantitative proxy for how much a student has learned. 
Six-credit courses represent more learning than do three-credit 
courses. Credit-hours can ensure that a CBE Bachelor's degree 
is the same size as a regular Bachelor's degree, and further, 
students need credit-hours on their transcript so they can 
apply for a higher degree or transfer to another institution.
    In reauthorization, Congress could helpfully support 
accreditors, institutions, and the Department to explore 
together alternative measures of academic progress that are 
understandable to the public and can be used for Title IV 
disbursement.
    Third, disaggregation of the faculty roles. Recently, some 
CBE and direct assessment programs have significantly 
disaggregated the faculty role, employing individuals as roles 
such as subject matter expert, coach, or assessor. This is not 
entirely new because, for decades, we have had lab assistants, 
advisers, and tutors.
    In 2016, our commission completed its recent standards 
revision. What was our standard on faculty is now teaching, 
learning, and scholarship, rewritten to recognize the 
importance of professionals who engage in these disaggregated 
responsibilities. The question for quality assurance with 
respect to disaggregated faculty roles is do the roles add up?
    One, is course content based on appropriate expertise? Two, 
is the course design appropriate to the learning goals, the 
student body, and the modality of instruction? Three, are 
assessments reliable and valid? Four, do students get 
appropriate help when they need it? And five, is the academic 
program coherent and periodically reviewed?
    For Congress, this likely means clarifying in statutory 
language that ``regular and substantive interaction'' focuses 
on the above five functions. The regular and substantive 
interaction requirement was added by Congress to prevent waste, 
fraud, and abuse in distance education, and while the premise 
is sound, it is time for Congress to modernize it, recognizing 
the changing roles of faculty in some programs. Accreditors, 
through the peer review process, are best suited to ensure 
compliance.
    Fourth, experiments for accreditors. Through provisions in 
the current law, the Department of Education runs experiments 
in the disbursement of Federal financial aid. Accreditors 
welcome these experiments, and we learn from them. The 
reauthorized Higher Education Act should provide a way that 
accreditors can experiment with assuring educational quality. 
The House bill does this.
    One way is differentiated accreditation. Regional 
accreditors pay much extra attention to institutions that cause 
concern, whether that be on graduation rates, loan default 
rates, financial stability, or more qualitative indicators. At 
issue is how accreditors can ensure that successful 
institutions have an accreditation process where their 
investment is commensurate with the outcome.
    Another experiment is to consider the accreditation of 
systems of public institutions. At least in New England, where 
states are small, it might make sense to experiment with 
accrediting a system that makes its case about how it meets the 
accreditation standards.
    More generally, some of today's innovations were not 
anticipated when the Higher Education Act was last 
reauthorized. For quality assurance to be relevant and 
trustworthy, accreditors must be able to innovate in ways that 
are robust enough to promote our common goals of access, 
innovation, and quality in higher education.
    Thank you for this opportunity. I look forward to your 
questions.
    [The prepared statement of Dr. Brittingham follows:]
               prepared statement of barbara brittingham
    Chairman Alexander, Ranking Member Senator Murray, and Members of 
the Committee. Thank you for the opportunity to testify today. My name 
is Barbara Brittingham, and I am President of the Commission on 
Institutions of Higher Education of the New England Association of 
Schools and Colleges, NEASC. Our Commission accredits 225 colleges and 
universities in New England and 11 American-style institutions abroad. 
We are proud that the Senate's HELP Committee has a Member from each of 
our six states, reflecting the historical and current commitment of our 
communities to high-quality higher education.
    The history of American higher education is in many ways a history 
of innovation. Accreditation has supported these innovations and 
continues to do so. Earlier, accreditors embraced land-grant 
institutions and community colleges that broadened access and brought 
education closer to employment needs. Recently, accreditation has 
embraced distance education, competency-based education, and dual 
enrollment programs for high school students that further open higher 
education to new populations. Now, through EQUIP, accreditors are 
expanding to boot camps and a wider range of third-party providers.
    Today I want to address four matters:
    First, quality in distance education. Our Commission has found that 
in evaluating the quality of distance education, institutional capacity 
is important; institutional control over academics, admission, and 
support services is key; faculty preparation and professional 
development are key; and monitoring student progression is essential.
    Distance education is no longer new. It is time to give accreditors 
more flexibility in how distance education is evaluated, specifically 
by allowing accreditors to determine whether the addition of distance 
education should be subject to the substantive change review. For 
example, by Federal regulation, this past year our Commission was 
obliged to review a proposal from Yale University to offer its 
physician assistant program online, even though it had gone through the 
governance process at Yale and had been approved by the specialized 
accreditor. This, frankly, was a waste of Yale's time and of the time 
of our volunteers.
    Second, quality in competency-based education or CBE. While CBE has 
been around for decades, there is greater interest today. And there is 
every reason to believe that for today's generation, lifelong learning 
will be necessary. Much of that additional learning will be focused 
around competencies relevant to work, often provided in short-term 
packages.
    In 2015, the seven regional accreditors issued a statement on 
Competency-Based Education; the statement provides guidance on the 
evaluation of CBE. The full statement can be found here: https://
cihe.neasc.org/sites/cihe.neasc.org/files/downloads/New--on--the--
Website/C--RAC--Statement--on--CBE--June--2015.pdf
    Based on our Commission's experience with CBE programs, the 
following are key considerations for Congress in ensuring quality 
competency-based programs:

        1. ``Competency'' means ``competent.'' Students should be 
        required to reach a level of achievement that is excellent or 
        near excellent. Think of nurses and airline pilots. CBE 
        represents a higher level of promise from the college or 
        university about the quality of its graduates. Employers must 
        find the competencies and their assessment to be trustworthy. 
        They must know what a graduate can reliably do.
        2. Competencies must have currency through credit-hour 
        equivalencies. Imperfect as it is, the credit hour is currently 
        the only quantitative proxy for how much a student has learned. 
        Six-credit courses represent more learning than do three-credit 
        courses. Credit hours can ensure that a CBE Bachelor's degree 
        is the same ``size'' as a regular Bachelor's degree. Further, 
        students need credit hours on their transcripts so they can 
        apply for a higher degree or transfer to another institution.

    With growing interest in CBE, Congress could helpfully support a 
way for accreditors, institutions, and the Department of Education to 
explore together alternative measures of academic progress that are 
understandable to the public and can be used for Title IV disbursement 
purposes.
    Third, disaggregation of the faculty roles. Recently, some CBE and 
direct assessment programs have significantly ``disaggregated'' the 
faculty role. They employ individuals in a range of distinct roles, 
e.g., subject matter expert, coach, assessor. This phenomenon is not 
entirely new. For decades, we've long had lab assistants, advisors, 
tutors, graders, and clinical faculty.
    In 2016, our Commission completed its recent standards revision. 
What was our Standard on Faculty is now Teaching, Learning, and 
Scholarship. And the standard was re-written to recognize the 
importance in many settings of professionals who engage in these 
``disaggregated'' responsibilities.
    The question for quality assurance with disaggregated faculty roles 
is: Do the roles add up?

        (1) Is course content based on appropriate expertise;
        (2) Is course design appropriate to the learning goals, the 
        student body, and the modality of instruction;
        (3) Are assessments reliable and valid;
        (4) Do students get appropriate help when they need it;
        (5) Is the academic program coherent and is it periodically 
        reviewed.

    For Congress, this likely means clarifying in statutory language 
that ``regular and substantive interaction'' focuses on the above five 
functions that faculty provide. The ``regular and substantive 
interaction'' requirement was added by Congress to prevent waste, 
fraud, and abuse in distance education. The premise is a sound one, but 
it is time for Congress to modernize it, recognizing the changing roles 
of faculty in some programs. Accreditors, through the peer review 
process, are best suited to ensure compliance.
    Fourth, experiments for accreditors. Through provisions in the 
current Higher Education Act, the Department of Education runs 
``experiments'' in the disbursement of Federal financial aid. 
Accreditors welcome these experiments and we learn from them.
    The re-authorized higher education act should provide a way that 
accreditors can experiment with assuring educational quality. The House 
bill does this.
    One way is differentiated accreditation. Regional accreditors have 
a good track record of paying extra attention to institutions that 
cause concern, whether that be in graduation rates, loan default rates, 
financial stability, or more qualitative matters. At issue is how 
accreditors can ensure that stable, successful institutions have an 
accreditation process where their investment is commensurate with the 
outcome. Our Commission wants to make sure that no institution has a 
``free pass,'' but we would like more flexibility to tailor the 
comprehensive evaluation for institutions that do not hit triggers 
related to financial stability, state or Federal investigations, 
graduation rates, and/or loan repayment rates.
    Another possible experiment is to consider the accreditation of 
systems of public institutions. At least in New England, where states 
are small, it might make sense to experiment with accrediting a system 
that makes its case about how it meets the accreditation standards.
    More generally, the innovations that accreditors face today were 
not anticipated when the Higher Education Act was last authorized in 
2008. And who can reliably predict the innovations in higher education 
that accreditors will face over the next five to 10 years? For quality 
assurance to be robust and relevant, accreditors must be able to 
innovate in ways that are flexible and robust.
    Provision in the Higher Education Act for trusted accreditors to 
experiment can promote our common goals of access, innovation, and 
quality higher education.
    Thank you for this opportunity. I look forward to your questions.
                                 ______
                                 
               [summary statement of barbara brittingham]
    Pertinent to this hearing, regional accreditors deal with four 
matters related to access and innovation.
    First, quality in distance education. Our Commission has found that 
in evaluating the quality of distance education, institutional capacity 
is important; institutional control over academics, admission, and 
support services is key; faculty preparation and professional 
development are key; and monitoring student progression is essential. 
Distance education is no longer new. It is time to give accreditors 
more flexibility in how distance education is evaluated, specifically 
by allowing accreditors to determine whether the addition of distance 
education should be subject to the substantive change review. My full 
testimony includes an example.
    Second, quality in competency-based education or CBE. In 2015, 
regional accreditors issued a statement on Competency-Based Education; 
the full statement can be found at c-rac.org Based on our Commission's 
experience with CBE programs, the following are key quality 
considerations for CBE: (1) ``Competency'' means ``competent.'' 
Students should be required to reach a level of achievement that is 
excellent or near excellent. CBE is a higher promise of achievement--
especially as relevant to employers--than is traditional higher 
education. (2) Competencies must have currency through credit-hour 
equivalencies. Students need credit hours on their transcripts so they 
can transfer to another institution or seek a higher degree.
    Third, disaggregation of the faculty roles. Recently, some CBE 
programs have significantly ``disaggregated'' the faculty role to 
employ, e.g., subject matter experts, coaches, assessors. The question 
for quality assurance is: Do the roles add up? (1) Is course content 
based on appropriate expertise; (2) Is course design appropriate to the 
learning goals, the student body, and the modality of instruction; (3) 
Are assessments reliable and valid; (4) Do students get appropriate 
help when they need it; (5) Is the academic program coherent and 
periodically reviewed. For Congress, this likely means clarifying in 
statutory language that ``regular and substantive interaction'' focuses 
on the above five functions that faculty traditionally provide.
    Fourth, experiments for accreditors. The re-authorized Higher 
Education Act should provide a way that accreditors can experiment with 
assuring educational quality. The House bill does this.
    One way is differentiated accreditation. Accreditors have multiple 
ways to follow-up on institutions at risk. At issue is how accreditors 
can ensure that stable, successful institutions have an accreditation 
process where their investment is commensurate with the outcome.
    Another possible experiment is to consider the accreditation of 
systems of public institutions. At least in New England, where states 
are small, it might make sense to experiment with accrediting a system 
that makes its case about how it meets the accreditation standards. The 
opportunity for trusted accreditors to experiment can promote our 
common goals of access, innovation, and quality higher education.
    More generally, the innovations that accreditors face today were 
not anticipated when the Higher Education Act was last authorized in 
2008. And who can reliably predict the innovations in higher education 
that accreditors will face over the next five to 10 years? For quality 
assurance to be robust and relevant, accreditors must be able to 
innovate in ways that are flexible and robust.
                                 ______
                                 
    The Chairman. Thank you, Dr. Brittingham.
     Dr. Bushway, welcome.

    STATEMENT OF DEBORAH BUSHWAY, PH.D., INDEPENDENT HIGHER 
    EDUCATION CONSULTANT , AND PROVOST, NORTHWESTERN HEALTH 
          SCIENCES UNIVERSITY, BLOOMINGTON, MINNESOTA

    Dr. Bushway. Mr. Chairman, Ranking Member Murray, and 
Members of the Committee, thank you for holding this hearing 
and for inviting me to testify about competency-based 
education, or CBE.
    Today, I hope to represent the thoughts of a larger 
community of educators who, along with me, believe that if we, 
as a Nation, are to expand prosperity and remain globally 
competitive, we must provide educational opportunities that 
lead to more equitable outcomes for our increasingly diverse 
population of students.
    While CBE is not the solution for every student, we remain 
passionately hopeful that CBE is one essential part of the 
solution. And we believe that now is the time for critical and 
careful decisions.
    While CBE is not new, there has been a sharp increase in 
the number of institutions developing and offering CBE programs 
in the last 5 years. Why are we seeing this rise in interest? 
An introduction to one student, Jennifer, who the Chairman 
apparently has met, according to his introductory remarks, 
might help us understand.
    Jennifer in my story is a nurse in her early thirties. 
After graduating from high school, Jennifer completed her LPN 
at a local community college. She loves her work at the local 
hospital, but new ownership is requiring that all nurses have a 
4-year degree. She has attended many hours of continuing 
education, but none of these courses were based in the 
fundamental currency of the U.S. higher education system, the 
credit-hour. Thus, none of this work gives her any momentum 
toward a Bachelor's degree.
    Indeed, many of higher education's structures and 
experiences were originally designed not for Jennifer, but for 
primarily first-time, full-time, 18-to 22-year-old students who 
are neither parents nor supporting themselves. Jennifer's 
situation is not unique. It has become the norm.
    A CBE program allows Jennifer to move quickly through the 
parts of her degree program that she has already mastered and 
to slow down to focus on those critical areas where she needs 
either to gain new knowledge or brush up on old learning. Her 
academic program is intentionally designed with a focus on 
outcomes to support Jennifer in achieving the learning and the 
credential she needs for career advancement, deepened 
engagement in her community, and socioeconomic mobility.
    To understand how CBE programs provide these solutions, it 
is important to understand what we mean by ``competency.'' A 
well-defined competency integrates--it articulates knowledge, 
skills, and ability and mandates the integration of theory and 
practice in the demonstration of mastery. Thus, in CBE, the 
time it takes to demonstrate competency and the sources from 
which students can learn may vary, but expectations about 
learning are held constant.
    Students progress toward their credentials, often at a 
personalized pace, based on their ability to demonstrate 
mastery of the defined competencies in an integrated 
curriculum. CBE can be less expensive for both students and 
taxpayers because it disaggregates courses into competencies 
demonstrated, and this modularization allows for more 
efficiency and precision as well as personalization.
    Without question, competency-based education also presents 
challenges. In my written testimony, I have offered more 
detail, but there are two large areas that emerge from the 
field. One, there is no shared definition of competency-based 
education. Currently, no definition of CBE exists in Federal 
law or regulation. This contributes to many regulatory 
challenges and inhibits responsible innovation.
    One particular caution. CBE is sometimes conflated with 
distance education, but there are important distinctions, and 
failure to understand this can lead to risky and damaging 
policy changes.
    Second, confusion exists over the best ways to integrate 
CBE programs into Federal financial aid. The assumption of the 
credit-hour as currency in higher education is prevalent across 
all financial aid regulation, and this challenges institutions 
faced with awarding aid.
    What can Congress do? First, we can--we ask that you create 
a definition for CBE. Congress should define CBE in the HEA in 
a way that correctly emphasizes its focus on learning outcomes 
and differentiates it both from distance education and 
correspondence courses.
    Second, authorize a CBE demonstration project to 
responsibly test out meaningful changes on a pilot scale before 
deploying them more broadly. A carefully designed and evaluated 
pilot could be created under the structure of the demonstration 
project and could allow us to learn how students and 
institutions would behave in an actual program with additional 
freedoms, thus identifying which guardrails are needed in 
future policy to protect both students and taxpayers.
    In summary, responsible innovation in our higher education 
system is vital for this country. CBE programs are an essential 
part of this needed solution. Additional innovation is needed 
to fulfill the promise of CBE, and yet there is reason to 
proceed with caution in order to maintain quality and protect 
against fraud and abuse when developing policy to support these 
innovations. Balancing innovation and caution is difficult, but 
students such as Jennifer deserve our solutions.
    Mr. Chairman, Ranking Member Murray, and Members of the 
Committee, thank you again for allowing me this time, and I 
look forward to the rest of the conversation.
    [The prepared statement of Dr. Bushway follows:]
                 prepared statement of deborah bushway
    Mr. Chairman, Ranking Member Murray, and Members of the Committee, 
I want to thank you for holding this hearing and for inviting me to 
testify about competency-based education (CBE). I have been an advocate 
of CBE since the early 1990's, when I worked as a faculty at a State 
university in Minnesota that had been founded as a ``university without 
walls'' in the late 1970's and was rooted in a competency model. I have 
been delighted to be able to apply that experience to the growth of a 
newer wave of CBE programs in my roles at various institutions, and 
through my participation in the Competency-Based Education Network. 
Today, I hope to represent the thoughts of a larger community of 
educators who, along with me, believe that competency-based education 
is an essential component in the effort to increase the percentage of 
our Nation's population who possess high-quality, post-secondary 
credentials of value. We believe that this increase in efficient, 
effective and high-quality post-secondary education is essential for 
individual and community prosperity, as well as critical to our 
Nation's ability to remain globally competitive.
    If our country is to have a vibrant middle class in the future, we 
must innovate to provide high-quality post-secondary opportunities that 
lead to credentials of value, and to advance more equitable outcomes 
for our increasingly diverse population of learners. As a Nation, we 
must commit ourselves to developing all of our talent. This is the only 
sure path to becoming a country capable of solving its problems and 
leading on the global stage. We are urgently aware that our country 
must expand on the design and delivery of high-quality postsecondary 
opportunities that better meet the needs of today's learners and 
employers, and that it must do so in affordable and efficient ways. We 
remain passionately hopeful that CBE is one essential part of the 
solution, and we believe that now is the time for critical--and 
careful--decisions.
                 Current Context & Future Possibilities
    While CBE is not new, there has been a sharp increase in the number 
of institutions developing and offering CBE programs during the past 5 
years. In fact, a field scan conducted in 2015 by Public Agenda and the 
Competency-Based Education Network found that upwards of 600 
institutions of higher education were in the process of developing, 
launching or scaling CBE programs. (https://www.insidehighered.com/
news/2015/09/10/amid-competency-based-education-boom-meeting-help-
colleges-do-it-right)
    Why this rise in interest? A look at the learners, Jennifer and 
Samuel, help provide the range of answers to this question.
    Jennifer is a nurse in her early 30's. After graduating from high 
school, Jennifer completed her LPN degree at a local community college. 
She loves her work in the local hospital and plays an important role in 
her community. Her hospital has joined a larger system, and this system 
is requiring all nurses to have a 4-year degree. At this point, 
Jennifer began to look for options that would allow her to earn the BSN 
while working and caring for her son. She also hoped to broaden her 
education to prepare herself for possible leadership roles in the 
future. In the years of working as a nurse, she had attended many hours 
of continuing education, but none of these courses were based in the 
fundamental currency of the US higher education system--credit hours. 
Thus, none of this work gave her any momentum toward the Bachelor's 
degree. She realized that there were areas in which she would benefit 
from traditional classes, but the idea of sitting through hours of 
lectures about nursing skills that she used on a daily basis was 
discouraging, at best.
    Samuel is a young man who graduated from high school last year. He 
attended four different schools during his high school career, and his 
academic strengths are varied. He aspires to complete college, but is 
worried that he won't qualify for college-level courses due to his 
uneven academic performance. Current assessment and placement systems 
for college entry are relatively blunt instruments that will likely 
place him in developmental or remedial courses which could discourage 
him as well as cost him time and money.
    Our traditional models of higher education, due to the ways they 
are structured from entry to completion, present significant barriers 
to each of these individuals. Many of higher education's structures and 
experiences were originally designed primarily for first-time, full-
time 18-22 year old students who were not parents or supporting 
themselves. This student profile fits only a minority of students 
currently enrolled in our colleges and universities, and these 
structures and experiences designed for this minority do not address 
the diverse needs of our current student population. While this model 
may still work well for students who fit that profile, it presents the 
following challenges for others:

        <bullet>  Doesn't address the knowledge, skills and abilities 
        previously gained by many students, such as Jennifer above
        <bullet>  Too often fails to provide a coherent educational 
        experience that connects life, learning and work
        <bullet>  Sometimes neglects to provide personalized support 
        for students and specialized support for different types of 
        learners, leaving many students on their own to navigate a 
        confusing maze
        <bullet>  Contributes to wasting time and money for students, 
        as well as taxpayer dollars, by providing a cookie-cutter 
        experience for the diverse range of today's students, such as 
        Samuel above
        <bullet>  Remains disconnected from the issues that matter most 
        for our economy and nation: labor market and civic engagement 
        outcomes for graduates
                           CBE as a Solution
    A CBE program allows Jennifer to move quickly through the parts of 
her degree program that she's already mastered AND slow down to focus 
on those critical areas where she needs to either get new knowledge or 
brush up on old learning. All of her educational experiences, from the 
curriculum to the design and support from facultymembers and coaches, 
and through use of technology, are designed to efficiently and 
effectively allow Jennifer to achieve the learning and credential she 
needs for career advancement, deepened engagement in her community and 
socioeconomic mobility.
    A CBE program could also support Samuel by modularizing the 
academic content necessary for his successful progression toward and 
completion of his post-secondary credential. Crisply defined 
competencies offer a more precise replacement for the blunt instrument 
of the ``course'' that is currently used to define readiness and allow 
access to higher education.
    How might CBE programs provide these important solutions? Let's 
start by creating a shared sense of what CBE programs look like.
    The Competency-Based Education Network, or C-BEN, is an 
organization with 86 members, (including 66 higher education 
institutions with over 100 campuses, 4 corporations, 8 individuals, 8 
K-12 Institutions, Associations or Other Non-Profit Organizations, 
Government Entities, and Non-U.S. Institutions of Higher Learning) who 
are active with CBE program development. C-BEN defines CBE as follows:
    Competency-based education combines an intentional and transparent 
approach to curricular design with an academic model in which the time 
it takes to demonstrate competencies varies and the expectations about 
learning are held constant. Students acquire and demonstrate their 
knowledge and skills by engaging in learning exercises, activities and 
experiences that align with clearly defined programmatic outcomes. 
Students receive proactive guidance and support from faculty and staff. 
Learners earn credentials by demonstrating mastery through multiple 
forms of assessment, often at a personalized pace.
    Understanding of what constitutes a competency is pivotal to 
understanding CBE. A well-defined competency articulates required 
knowledge, skills and abilities, and balances theory and application in 
a demonstration of mastery. It is essential to emphasize that both 
knowledge and the ability to apply it are required for a full 
demonstration of competency. Many times, competency is misunderstood as 
simply the demonstration of a disembodied skill. High-quality CBE 
programs recognize that the ability to generalize learning and succeed 
in our knowledge economy requires the mastery of underlying theory as 
well as the ability to perform the requisite skill--not simply the 
stand-along skill.
    CBE has several distinguishing features designed to meet the needs 
of our Nation's 21st-century students:

        <bullet>  Intentional backward design. In CBE programs, the 
        educational journey is designed with the end in mind and the 
        student at the center. Faculty begin by answering the question: 
        ``What ought a graduate of this program know and be able to 
        do?'' From this starting point, teams of faculty members, 
        employers and instructional designers develop a set of clearly 
        specified competencies that illustrate what the learner must 
        know and be able to do in order to progress in and complete a 
        credential. These competencies are integrated and scaffolded so 
        that the integrity (or gestalt) of the academic credential is 
        maintained.
        <bullet>  Outcomes emphasis. Competency-based education is an 
        approach to teaching and learning that focuses on the 
        competencies (knowledge, skills and abilities) that students 
        must master rather than the amount of time they have spent in 
        class (as measured by credit hours). This allows students with 
        some existing knowledge or skill to spend their time on new 
        content rather than reviewing already mastered material.
        <bullet>  Agnostic regarding learning source. Because well-
        defined competencies mandate the integration of knowledge 
        (theory) and practice (application), CBE programs can be 
        agnostic as to the source of students' learning. A student may 
        have learned the practice or application component of a 
        competency in a work setting and the theoretical component in a 
        traditional classroom, but what matters is the student's 
        ability to knit this together and demonstrate the competency as 
        required by the credential being earned. The institution 
        enrolling the student and offering the credential must provide 
        the student with proactive, relevant, and substantive 
        educational support that leads to this demonstrated learning. 
        This is very important to our student Jennifer.
        <bullet>  Rigorous requirements. Many people wrongly assume 
        that CBE programs are easier or shorter, but in reality a high-
        quality CBE program offers a very rigorous instructional model 
        in which students must demonstrate acquisition of all the 
        competency sets required to master a program of study. In fact, 
        for some students, CBE programs will take longer to complete 
        than traditionally structured programs--but a high-quality CBE 
        program will guarantee the learning outcomes--competencies--of 
        the students, unlike most traditional programs.
        <bullet>  Students at the center. In CBE programs, the student 
        educational journey becomes a primary organizing principle. 
        Rather than enrolling in a series of courses taught by 
        individual faculty members, the CBE student is engaged in a 
        carefully designed set of learning experiences and assessments 
        built to allow the student to demonstrate the required 
        competencies when she or he is ready to do so.
        <bullet>  Modularization. Rather than relying on the 
        traditional method of clustering chunks of learning into a 
        ``course,'' CBE disaggregates courses based on competencies 
        demonstrated as a result of learning. Each competency is 
        clearly articulated, and demonstration of each competency is 
        assessed and transcribed. Modularization not only allows for 
        more transparency, it also supports stacking of competencies 
        into diverse credentials.
        <bullet>  Personalization. Such modularization allows for more 
        precision and personalization in developing the student 
        learning journey. For each student--from Jennifer to Samuel in 
        our introductory examples--the path to a credential can be 
        customized by acknowledging where competencies already exist 
        and ``prescribing'' additional learning where competency is 
        absent or incomplete.
        <bullet>  Transparency. Student learning outcomes 
        (competencies) are clearly articulated and transparently 
        transcribed so that students, employers, and the public can all 
        know what any given credential means. This is much more 
        meaningful than the traditional ``grade'' offered for a course.

    In high quality CBE programs, these features are interwoven to 
produce value for the students in unique ways, including increased 
transparency of learning outcomes, potential lower costs of both 
tuition and time for some students, and the ability to personalize each 
student's learning pathway with increased precision and intentionality.
                        Current Barriers to CBE
    Without question, competency-based education presents new 
challenges with which policymakers must contend. First and foremost 
among these is the question of what students are paying for in an 
educational offering.
    In quality CBE programs, students are paying for an intentionally 
conceptualized, designed and delivered educational experience with 
learning outcomes at the forefront. These programs may be agnostic as 
to the source of learning (for example, it could come from an 
instructor, an interactive technology or open educational resources), 
yet they are dedicated to clear, rigorous and demonstrated learning 
outcomes for students and provide full support along the way. Rather 
than simply being propelled through a program, CBE students in a high-
quality program have demonstrated mastery of the skills required to 
comprise a degree. Graduates are able to prove their knowledge and to 
succeed in the workforce; employers have faith in the graduates' 
skills; and policymakers are confident that their investment has 
supported high-quality programs at which clear, rigorous, and 
demonstrated learning outcomes take precedence above all else.
    In such programs, innovative learning models are emerging, with new 
approaches creating opportunities for personalized, relevant, 
responsive and substantive support for learning that involves faculty, 
peers, employers and others.
    We must acknowledge that not all programs that claim to be CBE live 
up to this potential, and there is reason to proceed with caution when 
developing policy to support CBE in order to avoid the creation of new, 
lower quality higher education programs that could be harmful rather 
than helpful to students. The emergence of poor-quality competency-
based education programs would threaten the reputation and promise of 
CBE, while putting both students and the integrity of taxpayer dollars 
at risk. For that reason, it is critical that the higher education 
field--and CBE providers in particular--move from primarily relying on 
inputs and proxies for learning to instead supporting the provision of 
high-quality educational opportunities for students that lead to 
demonstrated competencies. Importantly, in any expansion of Federal 
student aid dollars to more programs and providers, the Federal 
Government should mandate that CBE providers meet minimum benchmarks 
for student outcomes and withhold taxpayer dollars from low-quality 
programs.
    One specific form of CBE program is called ``Direct Assessment''. 
This term comes directly from the HEA (https://ifap.ed.gov/dpcletters/
GEN1310.html; 34 CFR 668.10). In Direct Assessment programs, the 
student is awarded financial aid based on demonstration of competency 
rather than accumulation of credits. Since the approval process is 
appropriately rigorous, there are only a handful of institutions with 
approved direct assessment programs. These programs continue to create 
crosswalks between the competencies being earned and credit hours. 
These crosswalks support students' needs for transfer options, employer 
reimbursement and application to graduate schools.
    Existing high-quality providers of competency-based education 
providers recognize the importance of preserving the integrity of the 
academic credentials being earned. To that end, they have sought to 
provide assurances of the quality of their programs and ensure 
continuous improvement. However, some barriers to the expansion of 
high-quality CBE programs make further reform challenging. In recent 
discussions with many of the institutions that offer CBE programs, the 
following were some of the most significant barriers to fulfilling the 
promise of competency-based education:
    (1) There is no shared definition of competency-based education 
programs. Currently, no definition of competency-based education exists 
in Federal law or regulation. This absence generates confusion over 
what competency-based education is, and what it is not. Substantial 
differences exist even within competency-based education programs (for 
instance, direct assessment programs function differently from course-
based programs), and this confusion only furthers misconceptions of 
competency-based education programs. Some wrongly assume that CBE 
programs simply certify prior knowledge, which in actuality represents 
its own sub-field of prior learning assessment. This confusion 
contributes to challenges with financing students' tuition, 
transferring student credit, and ensuring accreditors are able to 
review and approve satisfactory programs in a timely manner.
    (2) Confusion exists over the best ways to integrate CBE programs 
into Federal financial aid. Competency-based education programs do not 
necessarily cleanly operate within the framework created for 
traditionally structured programs. They may face challenges in 
appropriately assessing student progress against a standardized 
benchmark of a term, given the self-paced nature of the programs. 
Whereas faculty and administrators at most colleges understand what a 
credit hour is, CBE providers lack a similar shared definition of a 
competency that can be used to accurately calculate a student's Federal 
student aid. The assumption of credit hour as currency in higher 
education challenges programs to calculate satisfactory academic 
progress and award aid in CBE programs. As a more specific example, 
students want to enroll in both direct assessment and credit bearing 
CBE programs concurrently, and this is prohibited under current 
regulations. There are additional important questions regarding the 
definition of the academic calendar and weeks of instructional time as 
well as issues with modular programs. The issues surrounding a 
requirement of regular and substantive interaction with faculty are 
knotty but critical to address. Each of these challenges requires 
careful and thoughtful consideration of how best to treat them within 
the context of Federal student aid, and demands testing of the most 
promising solutions that will work both within the multitude of CBE 
frameworks that exist and in the broader scope of other higher 
education offerings.
              The Path Forward for Responsible Innovation
    Defining a workable path forward is admittedly a challenging 
prospect. As we seek to support innovation in the higher education 
space that includes adequate guardrails to protect students and 
taxpayers, we must approach our work with a blend of caution and 
openness.
    Today's students of higher education are a very diverse set of 
people, inclusive of all classes, races, developmental stages of life, 
ages and abilities, and we have to challenge ourselves to create a 
range of higher education solutions that can support all of these types 
of students toward their goals. We must ask ourselves what our overall 
goals are for our higher education systems. In our current global 
environment, do we believe that learning only occurs in a formal 
setting? What should we do about learning that occurs outside of our 
institutions? Our current financial aid system is rooted in the 
assumption that students pay tuition to be given opportunities to 
acquire new knowledge. What if we also supported systems that validated 
learning that has occurred in other settings, such as the military or 
the workplace?
    Competency-based education offers a way to respect learning 
wherever it occurs while still insisting on demonstration of 
integration and synthesis of essential knowledge, thus maintaining the 
integrity of the earned credential. CBE does not give ``credit'' for 
experience. It is always focused on progress toward demonstration of 
robust competencies--each consisting of knowledge, skills and 
abilities. CBE also does not give ``credit'' for independent bits of 
learning, but rather CBE programs create an integrated learning 
experience which has its own form or Gestalt, and in which existing 
learning can be leveraged as appropriate.
    CBE can be delivered in a variety of ways: online, face-to-face or 
in a hybrid model. CBE is sometimes conflated with distance education, 
but there are important distinctions, including the program design, the 
intentional use of student support and the transparency of the learning 
outcomes. In fact, conflating distance education and CBE can lead to 
risky and damaging policy changes.
                          What Congress Can Do
    <bullet>  Create a definition for CBE. CBE must be defined within 
the HEA, and new expectations must be set for the CBE category to 
differentiate it from correspondence courses and distance education, 
and to address the concern that students might be ``left to learn on 
their own.'' These expectations should be focused on outcomes. They can 
be rooted in C-BEN's new Quality Framework and inclusive of new 
capabilities to personalize the learning pathway for students. This 
definition should not be conflated or confused with delivery 
modalities, including distance education.
    <bullet>  Authorize a CBE demonstration project to responsibly test 
out broader changes. While no one wishes we were ready to move away 
from a time-based measure of learning more than I, I also recognize 
that we're not ready to just throw out the credit hour. While the 
credit hour is an undeniably flawed measure, we don't yet have a 
replacement. Removing the tie back to credit hour without careful work 
can harm students, leaving them stuck without ability to transfer or 
apply for advanced degrees. There are a number of regulatory and 
statutory provisions that are tied to time that are worth exploring in 
a demonstration project. A carefully designed--and evaluated--pilot 
could be created under the structure of a demonstration project and 
could allow us to learn how students and institutions behave in an 
actual program, thus identifying which guardrails are needed to protect 
students and taxpayers. Even good ideas can easily turn harmful when 
Federal financial aid dollars are available without a clear sense of 
how new regulatory flexibilities could be abused--and how they can and 
should be guarded against.

    In this approach, C-BEN's newly released Quality Framework should 
be used to both inform the definition of CBE and to provide guidelines 
regarding which programs meet this new definition and thus can be 
included in the demonstration project. Through this effort, new 
expectations can be defined and tested to provide support for learning 
and differentiate CBE from correspondence education. This project, with 
well-defined guardrails to both protect students as consumers and guard 
against fraudulent use of Federal tax dollars, could also support the 
creation of shared competencies and explore ways to safely wean our 
systems away from complete reliance on the credit hour as the sole 
currency for higher education in our Nation.
    Once a program meets the criteria of a CBE program according to the 
new definition, the Department of Education could launch a full-
throated pilot project to find the best ways forward and make specific 
recommendations to Congress. This would allow for responsible 
innovation and reconsideration of current requirements such as regular 
and substantive interaction between students and faculty, weekly 
academic engagement, academic year definitions and existing 
satisfactory academic progress definitions. Since these CBE programs 
would be held to a higher bar for approval--and that higher bar would 
include personalized, relevant and substantive support for learning--
the requirement for ``regular and substantive interaction with the 
instructor'' could be tested. CBE programs would be free to leverage 
educational technologies, instructional design and learning sciences 
applications to provide support for learning outcomes without being 
restricted to narrow, outdated, and input-driven definitions.
                               Conclusion
    In summary, CBE can serve as a vital part of the solution to the 
challenges facing our Nation's higher education system. CBE programs 
will not meet the needs of every student, but they do offer a useful 
pathway to a post-secondary credential for some students. A growing 
number of institutions offer CBE programs, and the field has taken 
steps to define quality in this space. A well designed demonstration 
project could allow the next phase of innovation to occur with the 
protection of important guardrails. Within the context of this space 
for responsible innovation, new solutions could be developed and 
tested, supporting future, more permanent policy changes.
                                 ______
                                 
                 [summary statement of deborah bushway]
    Today, I endeavor to represent a community of educators who, like 
me, believe that competency-based education (CBE) is an essential 
component of our Nation's collective effort to increase the percentage 
of our population who possess post-secondary credentials of practical 
and personal value. If we are to maintain a vibrant middle class, we 
must provide educational opportunities that lead to more equitable 
outcomes for our increasingly diverse population of learners, in 
affordable and efficient ways. Now is the time for critical and careful 
decision making about the way forward.
    CBE is an approach to teaching and learning that focuses on the 
competencies (knowledge, skills and abilities) that students must 
master rather than the amount of time they have spent in class (as 
measured by credit hours). There is a misconception that CBE 
competencies are simply the demonstration of a disembodied skill, but 
high-quality CBE programs recognize that the ability to generalize 
learning and succeed in the global knowledge economy requires the 
mastery of underlying theory as well as the ability to perform the 
requisite skill. Both are needed, so CBE values both.
    In CBE, the time it takes to demonstrate competencies and the 
sources from which students can learn may vary, but expectations about 
learning are held constant. All students earn their credentials by 
demonstrating mastery in multiple forms of assessment, often at a 
personalized pace. Some people wrongly assume that CBE programs are 
easier or shorter than traditional programs, but in reality, a high-
quality CBE program is quite rigorous, as students must demonstrate 
acquisition of all the competency sets required to master a program of 
study. Still, CBE is quite often less expensive for both students and 
taxpayers than traditional programs because it disaggregates courses 
based on the competencies demonstrated, rather than relying on the 
traditional method of clustering chunks of learning into a ``course.'' 
Such modularization allows for more efficiency and precision, as well 
as personalization.
    More work is needed to standardize the definition of CBE across the 
post-secondary education field and regulatory bodies. I submit that 
Congress should define CBE within the HEA in a way that correctly 
emphasizes its focus on learning outcomes and that differentiates it 
from both distance education and correspondence courses. I further 
suggest that Congress authorize a CBE demonstration project to 
responsibly test innovative changes on a pilot scale before deploying 
them more broadly. These changes would include methods for moving away 
from the credit hour as the fundamental currency of U.S. higher 
education as well as new ways of delivering Federal financial aid to 
students enrolled in CBE programs. Importantly, in any expansion of 
Federal student aid dollars to more programs and providers, the Federal 
Government should mandate that CBE providers meet minimum benchmarks 
for student outcomes and withhold taxpayer dollars from low-quality 
programs.
    Defining a workable path forward is admittedly a challenging 
prospect. But until we commit to embracing innovations like CBE, we 
will remain--and only grow increasingly--disconnected from the issues 
that matter most for our economy and our Nation: beneficial labor 
market and civic engagement outcomes for graduates.
                                 ______
                                 
    The Chairman. Thank you, Dr. Bushway.
    Mr. Larsson.

  STATEMENT OF MICHAEL LARSSON, FOUNDER AND PRESIDENT, MATCH 
                 BEYOND, BOSTON, MASSACHUSETTS

    Mr. Larsson. Chairman Alexander, Ranking Member Murray, and 
Members of the Committee, thank you for the opportunity to 
share my experience with you.
    I strongly believe that thoughtful innovation in higher 
education, paired with the right support services, can 
significantly increase the number of traditionally underserved 
students who earn college degrees. Such innovation should be 
accompanied by public transparency around rigorous outcomes.
    I am cofounder and president of a nonprofit that currently 
serves 200 students in Greater Boston called Match Beyond. Our 
mission is to help students earn college degrees and the jobs 
that they gain access to when they earn those degrees. The 
average age of our students is 24. They are graduates from more 
than 80 high schools. Almost all are working at least full-
time. Most have previously attended college.
    We help students in two ways. We provide intensive, highly 
personalized, professional coaching from enrollment through 
graduation and into and during a job. And we provide support 
services that help students focus on school. These include a 
quiet, accessible workspace open long hours 7 days a week; 
daily lunch and dinner; computer and Wi-Fi access; and daycare 
or transportation help when needed.
    All of our students are enrolled in the nonprofit NEASC-
accredited Southern New Hampshire University. SNHU has a unique 
competency-based direct assessment online degree program called 
College for America, built specifically with working adults in 
mind. It is rigorous. The curriculum is intentionally designed. 
Students learn. And importantly, the competency-based online 
delivery model allows for a flexibility and affordability that 
breaks down real barriers to student success.
    The narrative often told that anyone who is smart enough 
and works hard enough can earn a college degree is wrong. Many 
people who have what it takes academically to earn a degree are 
not earning degrees because the circumstances of their lives 
and the rigidity of the college schedule makes it impossible, 
no matter how hard they work. It is unfair to suggest that the 
millions of underserved young adults in this country can put 
school ahead of job.
    I want to tell you about Tina. Tina today is on our staff 
as a coach. Up until recently, she was also a student. Tina 
grew up in Boston and finished in the top 10 percent of her 
high school class and was accepted to one of Boston's most 
exclusive private universities. It was her dream school.
    She earned a partial scholarship. At the end of freshman 
year, she ran out of money and could not reenroll. She assumed 
she would make it back to college someday but was now 19 and 
had to jump into the workforce, working primarily in the youth 
services field. At each job she held, she hit a ceiling. 
Advancement was only available to those with degrees.
    While working, she was also enrolled in community college. 
But her work and life responsibilities did not fit into the 
rigid college schedule. So she was only able to enroll in one 
or two classes per semester and, at that pace, was years away 
from earning an Associate's degree. Tina was stuck.
    Tina's story is not unique. The Georgetown Center for 
Workforce and Education recently reported that 500,000 students 
who finish in the top half of their high school class will not 
earn any sort of degree or credential. That is a half a million 
students every single year.
    We believe these students and the broader population of 6.5 
million students who are currently enrolled part-time in 
college will benefit greatly from thoughtful innovation. Back 
to Tina.
    She found us in July 2015, took full advantage of both the 
flexibility and supports that this new pathway offered. She 
earned credits 12 months a year. She worked closely with a 
coach who kept her on track. This May, she will be crossing the 
stage at Southern New Hampshire University to receive her 
Bachelor's degree diploma. She will do so without accumulating 
any additional debt and in under 3 years. She is one of 70 
students who we have worked with who have earned their AA or BA 
degree from SNHU so far.
    I firmly believe that innovation, particularly focused on 
providing college access and supports to the millions of hard-
working, but underserved students, will increase college 
graduation rates. We believe that the work we do at Match 
Beyond and the partnership we have with Southern New Hampshire 
University is a very early, but promising sign of that.
    In my written testimony, I have submitted concrete policy 
ideas that may help improve the opportunities that underserved 
students have to access and earn college degrees. As you 
consider reauthorizing the Higher Education Act, I do ask that 
you keep in mind these four principles that I find to be 
especially important.
    First, innovation is desperately needed in higher education 
from both existing higher education providers, institutions, 
and new providers.
    Second, by lowering the cost of education delivery through 
technology and innovation, colleges should use the savings to 
provide the support services students need.
    Third, innovation must be done thoughtfully. Outcomes must 
be tracked and evaluated. Students, as consumers, should be 
protected.
    Fourth, the focus on consumer protection should not just be 
on innovative models but should extend to the existing system. 
Outcome data should be clear and readily available to students. 
Colleges that overwhelmingly do not serve students well should 
be held accountable by the Federal Government, states, and 
accreditors.
    Mr. Chairman, Ranking Member Murray, and Members of the 
Committee, thank you for the opportunity to share my thoughts 
today and the experience of the students I work with. I am 
excited to hear that you are taking up this important issue.
    [The prepared statement of Mr. Larsson follows:]
                   prepared statement of mike larsson
    Chairman Alexander, Ranking Member Murray and Committee Members, 
thank you for this opportunity to share my experience in higher 
education with the Committee on Health, Education, Pensions, and Labor 
(HELP). My testimony today comes from what I have learned founding and 
running a non-profit based in Boston called Match Beyond.

    Based on this work, I believe that careful policy and regulation 
can increase dramatically the rate at which traditionally underserved 
students can access and succeed in affordable, high-quality colleges 
that prepare them for middle class jobs.
                      I. Overview of Match Beyond
    Three years ago, I helped launch a non-profit called Match Beyond 
where I am currently President. Our mission is to help students from 
low-income households earn quality college degrees at affordable prices 
and to leverage those degrees into career-track, middle class jobs.
A. Student Demographics: Serving Students who are Unable to Access the 
                      Traditional College System.
    We currently serve 200 working adults from Greater Boston. We will 
grow to serve 600 hundred students in Boston over the next few years, 
and we are working with non-profits across the US to replicate our 
model. Our students' demographics are as follows:

    <bullet>  Our students have graduated from approximately 80 high 
schools in Greater Boston, mainly large public district high schools.

    <bullet>  The average age of our students is 24. We serve students 
who range in age from 18 to 55.

    <bullet>  77 percent our students have previously enrolled in at 
least one college.

    <bullet>  85 percent of our students work a full-time job while 
working toward a degree with us.

    <bullet>  Our students are 50 percent Black/African American, 30 
percent Hispanic/Latino, and 9 percent white.

    <bullet> Our students come to us partly from word of mouth and 
partly via referrals from mission-aligned community partners, including 
YearUp and uAspire, that also work with students who lack affordable, 
quality college options.

    The Greater Boston area is home to 50,000--60,000 adults who 
graduated from low-income high schools in the last 10 years and who--
like our initial student body--have a high school degree but no college 
degree. Often these students are academically prepared to succeed in 
college but stop out of college or never go because it is too expensive 
or not designed to fit their ongoing lives and careers.

    Nationally, the picture is similar. A recent Georgetown Center on 
Education and Workforce study reported that each year approximately 
500,000 students finish at the top-half of their high school class but 
never go on to earn a college degree. The study reports that 47 percent 
of these students are low-income.
 B. Place-based and Relationship-based Services: Our Intensive 1-on-1 
                             Coaching Model
    Match Beyond provides students with four categories of wrap-around 
services and support.

    <bullet>  Enrollment Coaching. We provide personalized coaching to 
prospective students. We counsel them in full transparency on the 
nature of our model and seek, in true partnership with them, to 
determine if our model is right for them. We are our students' ally 
from the moment we meet them. A particularly technical and vitally 
important part of our enrollment coaching involves guiding our students 
through the financial aid process and helping them construct an overall 
financial plan for college.

    <bullet>  College Coaching. All students enrolled in our program 
receive a full-time, professional coach who helps guide them through 
their academic experience. In their multi-year relationship with our 
students, our academic coaches act mainly as a personal academic 
trainer who offers enthusiasm, thought partnership, time management 
advice, and general problem-solving advice every step of the way. Our 
coaches nudge our students constantly, check up on them, and hold them 
accountable to plans and goals. Over time, our coaches form deep and 
knowing bonds with our students and, when times get hard, serve as 
critical advisors and friends to our students as they manage competing 
demands of their families, jobs, and studies.

    <bullet>  Location-based Support Services and Access Supports. In 
addition to pairing our students with coaches, we also provide them 
certain crucial location-based services. In particular, we operate a 
safe, professional, quiet campus in downtown Boston. It is accessible 
easily by public transportation and open until 10pm and on weekends. At 
this site, we offer our students free Wi-Fi, free computers, free 
lunches and dinners, parking and transporting vouchers, and free 
childcare on weekends. Many of our students take advantage of this 
space as a location to study, to socialize with other students in what 
is otherwise a purely online course of study, and to meet with their 
coaches. For students who cannot access our downtown location, we 
schedule drop-in hours at cafes and public libraries in various 
neighborhoods of Greater Boston.

    <bullet>  Jobs and Career Coaching. All of our students have access 
to career coaches. These dedicated coaches work with our students from 
the moment they enroll to graduation. They help our students access 
jobs all along the career ladder. Our coaches help our students 
evaluate potential employers and careers. And in highly practical ways, 
they help our students with resume preparation, interviewing skills, 
and networking. They also continue to coach students while they are on 
the job.

    We consider coaching to be our core competency. It is the most 
essential component of our work. Earning a college degree requires 
sustained work and self-discipline and benefits from coaching--from an 
authentic relationship with a person who can be helpful to you, who 
cares about you, and who can keep you accountable.
  C. Academics and Course of Study: Our Partnership with Southern New 
                          Hampshire University
    Our academic model relies on a close partnership with Southern New 
Hampshire University (SNHU). SNHU is a non-profit, NEASC-accredited 
university. Our students enroll specifically in a program at SNHU 
called College for America (CfA), which is an online, competency-based, 
project-based, and direct assessment program that awards Associate (AA) 
and Bachelors (BA) degrees.
    We are excited that our students have access to SNHU's CfA program 
for the following reasons:

    <bullet>  Relevant to Work and Reputable. CfA offers AA and BA 
degrees in general management, communications, and healthcare. For our 
students, these degrees are well-designed to prepare them for a wide 
set of quality jobs in Greater Boston. Employers in Greater Boston 
trust the SNHU brand.

    <bullet>  Rigorous Academically. CfA's academic standards are 
demanding. The competency-based standards from which assignments and 
assessments on CfA are derived are rigorous and on par, in our view, 
with any campus-based offering.

    <bullet>  Flexible and Self-paced. When enrolled in CfA, students 
generally work at their own pace and on their own schedule. The CfA 
learning experience is designed around a ladder of multi-faceted 
projects. When students submit a project, they received detailed 
feedback within 48 hours and clear guidance on how to resubmit a 
project if it did not meet standards. Students are allowed to resubmit 
projects as many times as needed to meet CfA's competency-based 
standards. This means that our students can take individual paths and 
lengths of time to make progress, but they are held to a common, high 
academic bar.

    <bullet>  Affordable. The total cost to our students is $3,000 per 
semester. SNHU shares part of that revenue with Match Beyond to help 
fund our wrap-around, in-person student services. In our model, payment 
is structured as an all-you-can-learn model, which allows students, in 
any given semester, to complete as many projects and earn as much 
mastery as they wish. This allows students to control the overall cost 
and time to completion for their course of study.
                        D. Our Results and Goals
    Our goal over the next decade is twofold. First, we want 70 percent 
of our students to compete their degree on time, which we define as 3 
years for an AA degree and 5 years for a BA degree. Second, we want our 
students, upon graduation, to qualify for middle class jobs, salaries, 
and careers.
    To date and after 2 years of work, of 256 students who have 
enrolled in our AA degree program, 72 percent are on track to finish, 
or have already finished, their AA degree. That data point is 
promising, in our view. We do not yet have reliable data on the rate at 
which our students finish the BA degree or at the rate at which they 
qualify for jobs that meet our salary standards.
              II. Learnings in Practice from Match Beyond
    From our work over the past few years at Match Beyond, I can share 
the following four insights from the field and as a practitioner:

    <bullet>  Coaching and Relationships Marry Well with Quality Online 
CBE programs and Are Essential to Success. Competency-based education 
(``CBE'') designs create clear ladders of success and clear goals for 
students, and data are constantly available on student progress. As a 
result, coaching can be unusually effective in CBE settings since 
coaches have rich, constant data on student goals, student progress, 
and student productivity. The student data that come with CBE designs 
allow for highly targeted coaching and interventions.

    <bullet>  Flexibility Matters to Students and College Should Come 
to Them. In CBE models like CfA, students are no longer being asked to 
make the choice between work or family obligations and their studies. 
This tradeoff vanishes in CBE designs because they largely allow 
students to set their own pace and time of study. For example, if a 
student enrolled in SNHU's CfA program is suddenly offered an extra 
shift at work, she can adjust her study schedule. Similarly, if a 
student needs an extended break to tend to a sick family member, she 
can adjust to that unexpected event in a CBE setting. In a conventional 
college format, she might have dropped out. Conversely, if a student 
has extra time available for school, he or she can use that time to 
advance their degree. For example, if a student has a free Saturday 
because personal commitments were canceled, she can use all of that 
Saturday to work on school. The self-paced and flexible nature of CBE 
designs is absolutely vital to student success.

    <bullet>  Competency-based Online Learning Design is Powerful and 
Will Continue to Improve. CfA's CBE design--and other early CBE 
offerings--are not only rigorous but also surprisingly personal. Our 
students receive large amounts of quality feedback on their work, in 
many cases more than they would in conventional college settings. And 
as good as online CBE designs are already, they will only improve over 
time, as more entrants take up the model and innovate.

    <bullet>  Innovation Can Lower and Optimize the Cost of College. 
CBE designs can be strikingly low-cost to students and state and 
Federal funding streams, and can optimize resources in ways focused on 
student access and support. For example our partnership with SNHU is 
focused on the costs--mainly a rigorous online CBE curriculum and on 
place-based coaching--that we believe matter most.
                      III. Policy Recommendations
    Below are suggestions for policy and regulation. I make these 
recommendations based on my experience at Match Beyond and from my 
fundamental outlook that innovation can increase college access and 
success for students traditionally underserved by the existing college 
system.
      A. Proposals to Support Existing and Emerging CBE Providers.
    The competency-based sector of higher education is promising but 
small. Program like SNHU's College for America should be supported, and 
other IHEs should be encouraged to join them in delivering innovative 
CBE designs. To this end, we make the following three proposals.

    <bullet>  a. Stabilize, Clarify, and Validate the Federal 
Regulatory Process Whereby CBE Providers Seek Permission to Operate 
Direct Assessment Models. CBE programs can be assessed via direct 
assessment. I believe that this way of assessing students can improve 
student learning outcomes and provide the flexibility that many 
students need to succeed. Currently, for CBE providers to assess 
competency directly (as opposed to assessing seat time), they must seek 
permission from the USDOE. The current regulatory process to secure 
permission for direct assessment is time-intensive and generally a 
deterrent to innovation in CBE designs. Streamlining and simplifying 
this process would encourage more high quality CBE providers to enter 
this space.

    <bullet>  b. Thoughtfully Amend Minimal Progress and Fulltime 
Student Provisions within Financial Aid Regulations to Enable CBE 
Designs. Online CBE designs, by nature, do not specify the amount of 
work a student completes in a given semester. CBE designs let students 
proceed as quickly or as slowly as is needed for mastery. As a result, 
true CBE designs conflict with the ``minimal progress'' requirements 
and ``full and part-time status'' criteria in the HEA and related 
regulations that control whether a student is eligible for Title IV 
support, including Pell Grants. We urge you to thoughtfully amend these 
requirements to enable ambitious CBE designs.

    <bullet>  c. Encourage Accreditors to Consider CBE Designs That 
Improve Access for Traditionally Underserved Populations. We encourage 
you to consider changes to law and policy that will encourage 
accreditors to create quicker, clearer, and more supported pathways for 
CBE programs to acquire accreditation. Relatedly, accreditors should be 
encouraged to create pathways for entirely new institutions to get 
initial institutional accreditation and to enter the higher education 
sector.
    B. Proposals to Create Outcome Accountability for IHEs and Data 
                       Transparency for Students.
    When choosing among colleges, students lack access to thorough, 
reliable data on what matters to them--their odds of graduating, their 
chances of getting a job after college, their likely salary prospects 
after college, their full costs of college, and their likely debt load 
if they graduate (or worse, fail to complete). Historically, colleges 
have done little to report this data, and their state and Federal 
regulators, though at times committed to forcing data transparency, 
have general failed to create a rich, reliable data environment to 
inform consumer choice. Furthermore, colleges face little true 
accountability. They are rarely closed or sanctioned purposefully by 
accreditors or the USDOE even when the fail to serve students.

    In response to the related issues of low outcome accountability for 
IHEs and low data transparency for students, we recommend the 
following.

    <bullet>  a. Push with Renewed Purpose for Colleges to Share Data 
on Core Outcomes and Seek to Create and Enforce a Data-rich Environment 
for Consumer College Choice. We recommend a revived push, in law and in 
regulation, to force colleges to disclose core data on student 
outcomes, including graduation rate data cut by sub-group, full cost 
data, likely debt outcomes for both graduates and non-completes, and 
employment and salary results for graduates after graduation. These 
data sets--though so essential to consumer choice and protection--
remain either missing entirely to students or poorly assembled by state 
governments, the Federal Government, and related third parties. Forcing 
colleges to disclose clearly their results will not only police low-
quality colleges. It will also reward successful colleges and 
fundamentally encourage innovation and the further pursuit of quality 
designs that serve students in novel ways.

    <bullet>  b. Push With Renewed Purpose to Tie Federal Funding to 
Institutional Outcomes. Unequivocally, we encourage you to consider new 
and plain-spoken ways to condition Federal support for higher 
education--mainly in the form of Pell Grants and federally subsidized 
loans--on the basic measures of college quality, notably degree 
completion rates and job and salary outcomes after graduation. Holding 
colleges accountable for outcomes will not only police low-quality 
colleges. It will also reward successful colleges and fundamentally 
encourage innovation and the further pursuit of quality designs that 
serve student in novel ways. A determined move to connect Federal 
funding to IHA outcomes can be accomplished in a variety of ways, 
including via reform of accreditation and from increased, Federal 
supervision of IHE's under the Federal aid provisions of the HEA.
                               Conclusion
    Mr. Chairman, Ranking Member Murray and Members of the Committee, 
thank you for this opportunity to contribute to this important 
discussion on innovation and access in higher education, particularly 
for underserved students.
                                 ______
                                 
                  [summary statement of mike larsson]
    Chairman Alexander, Ranking Member Murray and Committee Members, 
thank you for this opportunity. I run a non-profit called Match Beyond 
located in Boston, Massachusetts. Our mission is to help students from 
low-income and lower middle-income households earn quality college 
degrees at affordable prices and to leverage those degrees into career-
track, middle class jobs.
    At Match Beyond, we recruit and enroll working adults ages 18-55, 
from Greater Boston. These students are overwhelmingly from low-income 
households. Our students study online in a competency-based program 
called College for American (CfA), operated by Southern New Hampshire 
University (SNHU). As our students study online, we staff them with 
intensive coaching (enrollment coaches, academic coaches, and jobs 
coaches) and a variety of wrap-around services and supports. Coaching 
is the most essential component of our work. Moreover, our model is 
affordable. The full cost of our college model--including online 
studies in CfA and access to our coaching and wrap-around services--is 
$3,000 per semester. Our goals are for 70 percent of our students to 
complete their degrees on time and to qualify for middle class jobs, 
salaries, and careers after graduation. We are young, but on track to 
reach those goals.
    Our main learnings from the field and as practitioners can be 
summarized as follows:
    <bullet>  Coaching and relationships are essential to our students' 
success in their online studies, and coaching marries well with the 
data-rich environment provided by quality competency-based education 
(CBE) designs.
    <bullet>  Flexibility matters to students. College should come to 
them, not vice versa, so that students can integrate college with their 
day-to-day lives, families, and work responsibilities.
    <bullet>  Competency-based online learning designs--exemplified by 
CfA--are already compelling, and they will continue to improve as more 
institutions of higher education enter the CBE field.
    <bullet>  Our work is an example of how innovation alone--without 
further public subsidies or price controls--can lower dramatically the 
overall cost of college to households and governments and still deliver 
strong outcomes.
    I make to the Committee the following recommendations for changes 
to law and regulation:
    <bullet>  Stabilize, clarify, and validate the US Department of 
Education regulatory process whereby CBE providers seek permission to 
operate direct assessment models.
    <bullet>  Thoughtfully amend minimal progress and full-time student 
provisions in Higher Education Act and related regulation to enable CBE 
designs.
    <bullet>  Encourage accreditors to consider CBE designs more 
enthusiastically and to create pathways for new entrants in higher 
education, a sector that lacks entrepreneurship.
    <bullet>  Push with renewed purpose to force colleges to share data 
on core outcomes and seek to create and enforce a data-rich environment 
for consumer college choice.
    <bullet>  Push with renewed purpose to tie Federal funding to 
colleges' outcomes, notably degree completion rates and jobs outcomes 
post-graduation.
                                 ______
                                 
    The Chairman. Thanks, Mr. Larsson, and thanks to each of 
you. Very, very helpful information.
    We will now begin a 5-minute round of questions. And 
Senator Enzi has deferred to Senator Hatch, our former 
Committee Chairman.
    Senator Hatch.
    Senator Hatch. Well, thank you, Mr. Chairman. I want to 
congratulate you and the Ranking Member for holding this 
hearing. It has been an excellent hearing, and I appreciate 
these witnesses and what they have said.
    Innovation in higher education, of course, can take many 
shapes and forms, as far as I am concerned, and it is not easy. 
And oftentimes, innovation and access can be one and the same 
topic, as I think we have seen from today's testimony.
    I have a larger statement I would like to make and submit 
for the record, but I would first like to highlight some of the 
innovative things going on in my home State of Utah and then 
turn it over to the panelists for some questions.
    [The prepared statement of Senator Hatch can be found on 
page 62 in Additional Materials]
    Utah is home to Western Governors University, which offers 
distance education and competency education. They enroll over 
80,000 students across the country, many of whom reside in 
states that are represented by Members of this Committee. The 
average age of the students is 37.
    With the Chairman's permission, I would like to submit 
testimony from the Western Governors University. If that is all 
right, Mr. Chairman?
    The Chairman. Without objection.
    [The following information can be found on page 64 in 
Additional Materials:]
    Senator Hatch. Salt Lake Community College in Salt Lake 
City also offers competency-based education and offers an array 
of innovative learning models, such as distance learning and 
open educational resources. I believe it is important to keep 
these constituencies in mind when we are talking about 
innovation in higher education.
    I support competency-based education largely because it 
benefits both students and communities by preparing students to 
respond to rapidly changing workforce needs. So I look forward 
to working with Chairman Alexander and the ranking Member and 
other Members of this Committee to introduce legislation that 
will address the proper framework for competency-based 
education and deliver on our promises to students, 
institutions, and consumers.
    Let me just ask, Dr. Brittingham, in your testimony, you 
suggest Congress define ``regular and substantive 
interactions.'' Now these terms are currently defined in 
regulation, and it is up to the accreditor to assure competency 
based on education--the education providers are providing 
students with ``regular and substantive'' interactions with 
faculty Members.
    There has been a longstanding principle of allowing the 
accreditor, not the Federal Government, make quality assurance 
determinations and help schools provide students with high-
quality education. If we define those terms in statute, how do 
we ensure that accreditors maintain the important role they 
currently play?
    Dr. Brittingham. Thank you, Senator, for the question.
    I think that part of the challenge right now is that when 
that provision was originally written, the idea in people's 
heads was the traditional faculty Member doing all of those 
various aspects--those five points that I pointed out about 
course content, appropriate design, reliable assessments, help 
for students, and coherence in review of the faculty. And as 
some of the programs have evolved, different people are doing 
those different roles. So I think it would be appropriate for 
the Senate to, in rewriting the regular and substantive 
interaction component, which I think is a legitimate point, to 
recognize how the faculty roles have evolved in some cases.
    Senator Hatch. Okay. Ms. Linderman, your testimony--in your 
testimony, you recommend Congress provide support for community 
colleges to adopt evidence-based models to improve graduation 
rates and help more low-income students attain degrees. You may 
know that I introduced the 21st Century Classroom Innovation 
Act with Senator Bennet in the 114th Congress.
    Now that bill established tiered grants for evidence-based 
innovation to be used to support student achievement and 
attainment for high-need students. In order to receive a grant, 
recipients would be required to rigorously evaluate innovative 
programs to ensure the best programs were supported by taxpayer 
dollars. Do you believe that type of approach can be adapted to 
higher education programs, and should Congress consider that 
approach when discussing a reauthorization of the Higher 
Education Act?
    Ms. Linderman. Absolutely. I think that it is critical that 
precious taxpayer dollars are invested in what we know works. 
It is important that innovation flourish, of course, and new 
ideas come up.
    I think if we are going to talk about the millions of 
students that come to college and expect to get a degree, we 
need to invest in programs that we know have the guardrails, to 
adopt Ranking Member Murray's term, and demonstrate that they 
have been tested and rigorously evaluated and prove that they 
are helping the students who need support to graduate.
    I completely agree that is critical. That is one of the 
reasons in New York City why our Mayor's office and the state 
invested so heavily in the expansion of the ASAP program. The 
program demonstrated success year after year after year, 
consistently exceeding very ambitious targets, overwhelmingly 
serving low-income students of color who struggled mightily not 
just at CUNY, but at colleges across the country, to enter and 
complete a degree program.
    It is not enough to increase enrollment and access. It is 
absolutely essential that money, that taxpayer dollars are 
going--are investing in programs that are demonstrating the 
ability to help students earn degrees or certificates of value 
so that they can improve their own economic prospects and 
improve the economic development of the local municipality, the 
state, and the Federal Government.
    But Dr. Levin and Garcia's cost-benefits study----
    The Chairman. We are well over 5 minutes.
    Ms. Linderman. Oh, I am sorry. Excuse me.
    Senator Hatch. Well, thank you, Mr. Chairman.
    Ms. Linderman. Thank you.
    The Chairman. Yes, thank you, Senator Hatch.
    No, thank you. It was a very interesting answer, but I am 
going to try to keep the questions and responses to 5 minutes 
so every Senator will have a chance to participate.
    Senator Murray.
    Senator Murray. Well, thank you. Thank you all for your 
testimony.
    Mr. Larsson, let me start with you and thank you for the 
work your organization is doing. It is extremely important to 
support the full spectrum of today's students, including recent 
high school graduates and adults whose needs may not be met in 
a traditional college setting.
    I am troubled by the research that has consistently found 
that pure online education isn't the right answer for low-
income students or students who need additional support. In 
your experience working with low-income and minority students, 
what are some of the additional challenges students face that 
require intervention or support from an organization like 
yours?
    Mr. Larsson. Thank you for the question, Senator Murray.
    I think a lot of the challenges that low-income students 
face in online, pure online, are also a lot of the challenges 
they face on campus as well. Things like really a safe, quiet 
space to get work done. You know, I know that when I go home 
from work every day and I get home, I can't get a lot of 
schoolwork done. It is very reasonable that a lot of our 
students can't either, and space that is accessible to them 
lots of hours during the day.
    Certainly things that are really simple but can break down 
real barriers to just creating the time for students to get 
work done. So daycare help, transportation services to get to 
that space that you have for them, and a warm meal when they 
get there, to get that schoolwork done. You know, if someone is 
worrying about finding something to eat, then they are 
certainly not going to be able to focus on schoolwork.
    Senator Murray. I think a lot of us don't recognize how 
many students are in college who are homeless. And you can't be 
successful if you don't have a space and a place that you can--
that is safe that you can do those things. So thank you.
    As we work to strengthen some of the different models of 
online education, what best practices would you recommend we 
examine to help replicate your efforts in supporting students 
in an online environment?
    Mr. Larsson. Well, I think in terms of ensuring that the 
college, the entity that is delivering the curriculum, is 
really high quality, is ensuring that students are learning. It 
is one of the things that we really love about partnering with 
Southern New Hampshire University, we really feel like our 
students are getting a lot out of it.
    Also that they are building something specifically for 
students that have challenges finding time to get schoolwork 
done. As opposed to a lot of innovation is about trying to fit 
students into an existing structure, really taking a step back 
and thinking how can we build a completely new structure around 
students' lives and like make this student-centered?
    Senator Murray. Okay. Dr. Bushway, I am really concerned 
that there are several proposals out there that actually remove 
Federal rules related to safeguards around faculty interaction 
in online education. And removing those safeguards could lead 
to the creation of an expansion of schools without teachers in 
ways that may not be good for students or, actually, the 
Federal taxpayer.
    As someone here today who has worked for and designed both 
online and competency-based education programs, talk a little 
bit about what are some of the key ways CBE programs differ 
from online programs.
    Dr. Bushway. Thank you for that question.
    I think one of the key ways that CBE differs from online is 
that there is an intentional design wrapped around the student 
need and with attention to learning outcomes and longer-term 
outcomes. So it is not an experience that is designed in a 
fragmented way, but it is, in fact, a cohesive experience that 
supports the student through to completion.
    Senator Murray. So not just taking an online course just to 
take an online, but rather looking at what do you get at the 
end of the day?
    Dr. Bushway. At the end of the entire program, right?
    Senator Murray. Right.
    Dr. Bushway. And so this is the big distinction is online 
courses can simply be courses delivered in distance ED. Where a 
comprehensive CBE, high-quality CBE program--and I want to make 
clear that it has to be high quality--does start from the end 
and build back a curriculum that supports the student through 
to completion in all these ways that we have discussed.
    Those models, I think, in the safety of a well-designed 
demonstration project, we could begin to experiment with what I 
like to call more proactive and comprehensive substantive 
support for learning rather than regular and substantive 
interaction with a faculty. In regular online distance ed 
programs, I would not support moving that to that level of 
freedom.
    Senator Murray. Okay. So do you think that Congress should 
eliminate requirements for faculty interaction?
    Dr. Bushway. I do not at this point in time. I think we 
need to learn more in a demonstration project, and I think a 
demonstration project offers us more freedom than an 
experimental site. I can explain more about that.
    Senator Murray. Yes, tell me what you mean by that.
    Dr. Bushway. So experimental sites are limited by the 
current law in terms of what the Department is able to flex, to 
waive, and there is no definition for CBE. So that restricts 
our ability to use the ex sites in those ways.
    Senator Murray. Okay. Thank you. Thanks very much.
    The Chairman. Thanks, Senator Murray. I know that Senator 
Collins and Senator Isakson have an 11:30 a.m. meeting. I think 
we will have time to get to both of you before then, and I will 
try to make sure of that.
    We will call Senator Enzi is next. Senator Isakson, do you 
want to go next? Or do you want--why don't we go to Senator 
Collins and then to Senator Isakson? Is that all right?
    Senator Collins.
    Senator Collins. Thank you. Thank you to my colleagues for 
being so gracious.
    Dr. Brittingham, I know you are very well aware of the 
seven independently accredited universities within the 
University of Maine system. And in the interest of full 
disclosure, my brother was the recent chair of the Board of 
Trustees of the system, and a very close childhood friend is 
the chancellor. So I just want to expose all of my conflicts of 
interest right up front.
    In 2015, the University of Maine launched its One 
University Initiative to strengthen the system as a whole, but 
by law, accreditors still have to accredit each individual 
institution. In your testimony, you mention considering 
accreditation of the university system as opposed to each 
institution within the system. Could you expand on what the 
benefits would be of a system-wide accreditation, perhaps using 
Maine as an example, since I know you are very familiar.
    Dr. Brittingham. I am familiar, and I just want to say that 
in New England, Maine is the big state, and the others are all 
smaller. And I was impressed to learn that the county in Maine, 
Aroostook County in the very northern part, is bigger than 
Rhode Island and Connecticut in land mass. So we are talking 
about large distances. We are talking about very challenging 
demographics.
    With the One University Initiative, the chancellor and the 
board want to make sure that they do everything possible to 
make as many educational opportunities available to Maine 
students of all ages as possible. And one of the things that 
they are doing is trying to make educational experiences from 
one institution available to students at another.
    When we accredit one institution at a time, part of what 
that is going to mean, if they get very successful at that, is 
that the seven universities are going to become so entangled 
that it is difficult to impossible for us to look at, to hold 
each one accountable for what they are doing.
    It is a good thing to do educationally, but it runs up in a 
very difficult way, or it could, with accreditation. If, on the 
other hand, we could, as an experiment, accredit the system, 
then we would look at the whole seven universities at once in 
the system to see if they were meeting the educational 
standards set by the accrediting commission.
    Senator Collins. Thank you.
    Dr. Bushway, this past fall, the University of Maine at 
Presque Isle, which is in the northern part of the state in 
Aroostook County, began offering a competency-based education 
Bachelor of business administration degree. I believe that UMPI 
is the first public university in New England to offer that 
kind of CBE degree program, and I can see Dr. Brittingham is 
nodding yes.
    The goal of this program is to give individuals with some 
college experience and credit a pathway to complete their 
degree, and I think it is fascinating that 53 percent of the 
students who have enrolled in this online competency-based 
program are between the ages of 40 and 65. So it is reaching an 
older population and giving them the skills that they need.
    The tuition is also far less expensive, and the University 
of Maine at Presque Isle developed this after consulting with 
the business community about what their needs were. In your 
testimony, you noted that some people wrongly assume that CBE 
programs are less rigorous than traditional programs, and yet 
what I hear from administrators at UMPI is that their students 
must demonstrate excellence or near excellence in each 
competency.
    What key reforms to the Higher Ed Act could be made to 
ensure that we do have high quality in these programs?
    Dr. Bushway. It is an important thing to note that in 
traditional education, the students pass through courses in 
which assignments are sort of average, and so your performance 
is averaged across different aspects. In CBE programs, you have 
to demonstrate a high level of competency in each individual 
competency, which is what makes it much more rigorous, and 
people don't always understand that.
    I think I will go back to the point that as we move 
forward, we have to maintain a definition of quality, and those 
quality indicators have to be rooted in student outcomes, 
learning outcomes and longer-term outcomes for those students. 
So we ought to be paying attention to gathering and reporting 
data, everything from progression to graduation rates, to 
learning outcomes, to performance after graduation.
    Senator Collins. Thank you. And thank you very much, Mr. 
Chairman and my colleagues, for letting me jump the line.
    The Chairman. Thank you, Senator Collins. Senator Hassan?
    Senator Hassan. Thank you, Mr. Chair.
    Again, thank you to all of the witnesses this morning.
    Dr. Bushway, I want to follow-up a little bit about what 
you were just talking about with Senator Collins. As you could 
probably tell from my introduction of Mr. Larsson, I am a 
supporter of high-quality competency-based education programs 
and fortunate to come from a state that has been leading the 
effort in both the higher education and K-12 space. So I have 
seen firsthand that additional flexibility and project-based 
assessments can increase access and completion for students, 
especially for more nontraditional ones.
    Southern New Hampshire University has engaged in this work 
successfully without compromising student rights or student 
success, which must remain our number-one priority in all our 
discussions of higher education.
    You were just talking about the things you really need to 
focus on to make sure that there is quality in the CBE 
programs. As we move forward to reauthorize the Higher 
Education Act and more higher education institutions look to 
add and scale CBE programs, what guardrails must be in place--
you talked about that a little bit just now--to ensure that 
students are not taken advantage of?
    Maybe the way to put it is what distinguishes a high-
quality CBE program from a low-quality one?
    Dr. Bushway. It is a great question, and there are a number 
of ways that we can distinguish it. One of the documents that I 
would point back to is CBEN, which is the Competency-Based 
Education Network, a national organization, has recently 
released a set of quality standards or a quality framework. I 
think that this tool could be very useful.
    It includes things like making sure that the program is 
designed with the student experience in mind, with an 
intentional attention to student data regarding progression, 
graduation rates, actual achievement of the learning outcomes 
that are being promised, and longer term sort of career and 
civic-minded sorts of outcomes as well. So attention to that 
data, collection of that data, reporting on that data, and a 
continuous improvement mindset about making sure these programs 
are paying attention and improving their quality.
    Senator Hassan. Well, thank you. That is very helpful.
    Dr. May, I wanted to focus a little bit on another aspect 
of how we can improve access. In New Hampshire, we have a dual 
enrollment program facilitated by our community college system 
called Running Start. During the 2016-17 academic year, over 
75,000 of our students were enrolled in this program across 99 
different high schools.
    The courses at the high schools cost $150. So they save 
students thousands of dollars to complete one or more course 
and go on to pursue 2-or 4-year degrees. The community college 
system of New Hampshire tracks student success rates, comparing 
between students who took a Running Start course in high school 
and those who did not. So these are courses that qualify you 
for college credit at our community college system, but you are 
taking them during your high school time.
    There is some data that indicates that students who took 
one or more of these courses end their first college term with 
more credits and with a higher GPA. Can you explain to us the 
results you have seen firsthand from students who participate 
in dual enrollment opportunities and how collecting additional 
data around these programs could help us scale and improve 
these kinds of programs?
    Dr. May. Thank you. Thank you very much for the question.
    We currently partner in Dallas with 31 high schools in 
which we have early college high schools P-TECH, which would be 
Pathways to Technology and so forth----
    Senator Hassan. Right.
    Dr. May ----where we enroll roughly about 13,000 students 
in those programs. What--we work with the most challenged 
school districts and challenged schools, and what we find is we 
can take school districts that have an average rate of students 
going on to earn a postsecondary credential of 11 percent and 
change that. In fact, we can more than triple that number in a 
very short period of time.
    What we have is that the barriers are not the inability to 
learn. The barriers are really not understanding higher 
education, not feeling like they can afford it, have access. So 
we talk about this a lot, that it is the handoff between 
institutions are the real challenge, not what is taking place 
within those institutions. And we remove friction from that 
process. We see individuals that would take advantage of it. 
They just can't figure out how to navigate that in a manner 
that is meeting their needs.
    I think that, too, that we need to make sure that dual 
credit is offered with intent and in line with pathways leading 
to degrees, and that really needs to start with a partnership 
with the school as far back as the eighth grade, where we begin 
to put those in place, so that the student is prepared when 
they enroll in the college-level courses to be successful 
because that is what we all want--higher numbers.
    We see that this is a transformative effort when these type 
of partnerships can come together in a way that really is 
focused on the student primarily.
    Senator Hassan. Well, thank you very much. Pathways, 
helping students identify pathways is critical.
    Thank you, Mr. Chair, and thank you again to all of the 
panel.
    The Chairman. Thanks, Senator Hassan.
    Senator Enzi.
    Senator Isakson.
    Senator Isakson. I will be quick, Mr. Chairman. I 
appreciate the courtesy of Senator Enzi.
    You know, Senator Enzi, I was sitting here thinking during 
this hearing, it is deja-vu all over again for you and I 
because 19 years ago, President Clinton created the Web-based 
Education Commission to look into this thing called the 
computer and see if there would be any role in delivering 
educational content in the 21st century. We spent a year doing 
that.
    The decision we came up with, one of them was called the 
seat-time rule, where you had to have at least 50 percent of 
your time in a seat being instructed by a teacher in order for 
the curriculum to count toward that graduation if you were 
taking the rest of it on a computer. Meaning we didn't quite 
trust the computer yet.
    Now, of course, the delivery of content on the Internet and 
use of Web-based education proliferates everywhere in business, 
in our great universities. So I really commend Ms. Bushway's, 
your recommendations, Doctor, in talking about competency-based 
education and doing a demonstration project or getting a good 
definition of it and being sure we get our arms around distance 
learning and recognize what it really is and not what a lot of 
us thought it was.
    The United States Army today is delivering college content, 
and soldiers are graduating by taking their classes in cyber 
cafes in Europe and in the Middle East because we deliver 
content on the Internet.
    Urban universities like City University of New York is 
delivering great content to a student that before it was out of 
the reach of--going to college was out of the reach for them 
because the delivery system was you went to a building and sat 
in a building and listened to a teacher. And that wasn't--the 
capability of doing that for an urban student was not possible.
    I really commend the Chairman on putting this Committee 
together, this hearing together today. I think we are learning 
a lot of great information. I appreciate it very much.
    I will ask one question to really--I will hopefully prod 
Ms. Linderman to make a couple of statements about the urban 
university. The Georgia State University has a program called 
Panther Grants and a predictive analytics computer software 
that it uses to predict the likelihood of a student falling 
between the cracks before they get to graduation time.
    In fact, the Panther Grants are small grants up to $500 
they give to a student that is in need of $500 more to finish 
their senior year or to finish their senior final semester. And 
the use of predictive analytics, they take the information of 
the student's work in school to predict whether or not they are 
going to be able to finish on their own. If they can't, they 
give them the aid if the financial aid will help, or in some 
cases, instructional aid will help.
    Are you using computer programs with things like predictive 
analytics or something like that to track your students, go to 
the students and find one that is in trouble and bring them 
some help?
    Ms. Linderman. So we are great admirers of the Panther 
program that you are mentioning in Georgia. Predictive 
analytics is something that CUNY is moving toward using 
increasingly. We use algorithms to determine the likelihood 
that a student is going to need remedial need on their way in 
the door and try to get them into interventions.
    A program like ASAP uses kind of a combination of computer 
and actual people studying the patterns of a student and trying 
to identify the types of problems that you mentioned ahead of 
time. We are increasingly moving toward adopting programs like 
the EAB Predictive Analytics Program to look in advance to see 
what is the likelihood a student is going to get into trouble.
    I would say that is the heart and soul of our ASAP program. 
We are looking for those exact patterns that you are 
describing, intervening before a student gets in trouble, and 
making sure they get the support they need, whether it is 
financial, tutoring, advisement, or counseling support.
    Senator Isakson. I thank all of you for your leadership in 
education, getting education to our children and our young 
adults and our seniors, who are now enrolling in college at 
ages we wouldn't have thought of possible 20 years ago, but 
because the world is changing.
    Mr. Chairman, thanks to you for bringing this before us.
    The Chairman. Thank you, Senator Isakson. Senator Isakson 
is former Chairman of the Georgia State Board of Education. So 
he has had a long role in all this.
    Senator Smith.
    Senator Smith. Thank you very much, Mr. Chair and Ranking 
Member Murray.
    This is very interesting, and I am hearing a very common 
theme around innovation, yes, but innovation that is 
responsible and that has some guardrails--is the language we 
have been using--that is thoughtful and that is really focused 
on how do you measure quality. So I appreciate that.
    I want to go to this question of how we can make sure that 
students not only can get access to higher education, but then 
once they are there, they are successful. And it strikes me 
that so many of the barriers here are actually outside of the 
classroom. That is very much a common theme here, including 
barriers to housing, access to childcare, transportation. You 
know, runs the gamut, the things that are traditionally thought 
of as in some ways--traditionally thought of as being outside 
of the responsibility of the school.
    We certainly are in Minnesota working on this. For example, 
providing access to childcare or maybe, as Senator Isakson is 
talking about, kind of micro grants like Panther Grants to help 
people on an urgent need that will make sure that they don't 
fall through the cracks because of an urgent problem.
    So I am wondering, especially Ms. Linderman and also Mr. 
Larsson, with your experience, if you could just talk a little 
bit more about what you have learned, what works, as we think 
about that more holistic approach--really, anybody--but more 
holistic wraparound approach as we have been saying?
    Ms. Linderman. Thank you. It is such a critical piece of 
the student success puzzle, the needs outside of tuition and 
fees.
    When we created ASAP, we really tried to look at what the 
key barriers were to students going full-time at our community 
colleges. And a big--what we found big pieces were, were gaps 
in financial aid that forced a student to drop to part-time 
status or stop it, move in and out; transportation, which is 
extremely expensive in the city of New York. An unlimited Metro 
card is more than $100 a month. That is groceries for a low-
income student. And the cost of textbooks. Many students just 
opt not to get textbooks.
    What we tried to do was study these barrier patterns and 
remove as many of them as possible so that students could 
maximize their financial aid. We also wanted to try to identify 
barriers that emerge that make students drop out. So struggles 
in a class, difficulty speaking to a faculty Member.
    We invested heavily in very comprehensive advisement so 
that there was a caring adult that was guiding each student and 
talking about these problems as they emerge. Food security 
issues, immigration, domestic violence. The adviser can't solve 
all those problems, but they are very knowledgeable about the 
referral services available and get the student to those 
services or to access resources before they have to drop out of 
school.
    These are a couple of things we are doing in ASAP to 
address those exact barriers.
    Senator Smith. Thank you. Anybody else?
    Mr. Larsson.
    Mr. Larsson. Thanks, Senator.
    The only thing I would like to add is for us, while we do 
provide practical supports, our biggest support that we provide 
for our students is a coach. So every single one of our 
students has a full-time coach that works with them to help 
them navigate the college experience and navigate their lives, 
basically act like a personal trainer for their education.
    One of the awesome things about this competency-based 
education program is it is flexible, but it is also really 
hard, right? We all struggle in our lives trying to take on 
things that where the payoff is far down the road, right? 
Especially when we have a lot of things in front of us.
    What we find is the biggest support that our students 
receive is, is this coach that helps them navigate what they 
need.
    Senator Smith. Thank you very much.
    I would like to go to Dr. May with this. This is it sounds 
like we have similar issues in Minnesota that we do in the 
Dallas area, which is this forecast worker shortage, and how 
can we make sure--we think it is in Minnesota about 100,000 
people gap between the jobs that are being created and the 
people that are prepared to do those jobs.
    Could you just talk a little bit about kind of the work 
that you have done to help build partnerships between 
businesses and community college and what we could more at the 
Federal level to support those kinds of innovations?
    Dr. May. Well, I think one of the main challenges is that 
many of these jobs that are going unfilled don't require a 
year's worth of education even. Many of them are certificates 
that can be 6 months or even shorter, and yet we have such a 
shortage of workers in some of the IT fields, some of the 
construction, some of the healthcare and others, that with 
these jobs there, we require the student to pay out-of-pocket 
for those in most cases.
    Where I believe this is really a value judgment on the part 
of society, and the Higher Ed Act specifically, where we have 
said certain types of skills and knowledge and abilities are 
more important than others. When, in reality, we need everyone 
in the workforce to contribute, and we need to support those 
efforts.
    Senator Smith. Right. Thank you very much.
    Thank you, Mr. Chair.
    The Chairman. Thank you very much.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman and Ranking Member.
    Mr. Chairman, I appreciate you and the ranking Member 
putting together this hearing. It has been extremely 
enlightening, particularly with the testimony that you 
submitted beforehand. There are lot of good suggestions in 
there that I know you had to condense to put in here. And of 
course, I appreciate the Chairman's experience, having been the 
president of the University of Tennessee, as well as the former 
Secretary of Education. He has tremendous credentials in all of 
these areas.
    I have some credentials. When I was in the Wyoming State 
legislature, I was on the National Higher Education Commission, 
and I was at that commission when the Western Governors that 
Senator Hatch mentioned made their announcement, and it was 
televised nationally. Five states going together to create a 
university online. And we stopped the meeting and put on the 
television and watched this thing.
    After the announcement was done, these college presidents 
that I was with said, ``So how are we going to know whether to 
charge in-state tuition or out-of-state tuition?''
    [Laughter.]
    Senator Enzi. Just for the record, everybody pays the same 
tuition at that university. And when I got here, I got to be 
involved in creating the demonstration program for competency-
based education, using it at the Western Governors University.
    It has been a delight working here. I married an extremely 
brilliant woman. Probably the only lapse she ever had was 
agreeing to marry me, and she agreed to marry me when she was 
just finishing her sophomore year of college.
    While she was raising a couple of kids and helping run a 
shoe store, she finished up her education, her first degree. 
And part of it, she had to travel 70 miles each way, 3 days a 
week, to get classes. When she worked on her master's degree, 
she was able to do some of the competency-based education.
    One difficulty with that was that part of it was in D.C. 
through the University of Wyoming, and there is a 2-hour time 
difference. So the 8 p.m. class out there was 10 at night for 
her. But she did wind up getting her master's degree, and so we 
have learned quite a few things during that process as well.
    To actually get to a question, we have been interested in 
the labor force, of course, having had shoe stores. So, Dr. 
May, the value of a degree is largely dependent on the value 
that employers place on it. In your experience, how are 
employers embracing this expansion of competency-based and 
distance learning? And to what end and how do you envision 
these partnerships between education institutions and 
employers, and how do you foster those?
    Dr. May. Let me comment first on the value of competency-
based education. We look at what employers are investing their 
own money in to develop. Almost all the time, they are 
competency-based programs that are designed around the skills 
that they need for their own company and their own business and 
their own organization in order for the employees to be 
successful with that.
    Therefore, when we have conversations with them, they are 
looking at what we can do to dovetail with the investments that 
they are already making themselves, but also they understand 
that those have very little transportable ability within the 
market. So how can we help and work with them to not only get 
the skills that they need, but then align that with the 
credentials that they want to have when they graduate?
    Also the partnerships as used with business with industry, 
that is really where we have to start today, as we have seen a 
dramatic shift in terms of the needs of employers. Recently, 
the Dallas Regional Chamber of Commerce did a survey of roughly 
2,000 employers in the North Texas area. The number-one concern 
was where they were going to get the talent in order to be 
successful in their business. The number-two concern was how 
they were going to retain talent because the competition for 
skills and abilities were causing people to steal from each 
other in the process.
    It really is how do we invest locally so that we can grow 
the workforce? That needs to happen, and I believe that is why 
we need to have workforce or short-term Pell in order to help 
meet those needs.
    Senator Enzi. Thank you, and my time is almost expired. I 
will have questions for each of the rest of you, particularly, 
Dr. Brittingham, where I want to get some more information 
about this regular and substantive interaction.
    I remember some of the college courses that I took where 
there were a couple hundred students and no opportunity for any 
interaction, but I was in the classroom. So I will be getting 
some of those questions to you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Enzi.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman, and thank you all 
for being here today.
    I know that many of our witnesses have been talking about 
the importance of innovation in higher education to be able to 
meet the needs of nontraditional students, students who haven't 
come directly from high school. I have to say, this discussion 
also hit home for me. I was not a traditional student. I 
dropped out at 19. I got married, and I got my degree at a 
commuter college later and many hundreds of miles away from 
where I had started.
    I support the whole idea that we can innovate and find more 
ways to serve nontraditional students. But I want to start with 
a question around this, if I can. Dr. May, what proportion of 
your students would you describe as nontraditional?
    Dr. May. Of our 150,000 we serve, about 70,000 are credit, 
and fully 75 percent of those would be what you would consider 
nontraditional students.
    Senator Warren. So about 75 percent of the students you are 
serving.
    Dr. May. That is exactly right.
    Senator Warren. Ms. Linderman, how about you?
    Ms. Linderman. So within the ASAP program, it is about 15 
percent, which is similar to the incoming Associate freshman 
rate at CUNY.
    Senator Warren. Okay, and Dr. Brittingham?
    Dr. Brittingham. For the--for all of New England----
    Senator Warren. I am sorry. I should have done Dr. Bushway. 
That is right. I realize you don't have a school. I should have 
jumped over. Dr. Bushway?
    Dr. Bushway. In the CBE programs where we have data, it 
ranges from about 75 to 85 percent of the students are 
nontraditional.
    Senator Warren. Wow.
    Dr. Bushway. Over age 25.
    Senator Warren. A lot of variation here, and Mr. Larsson?
    Mr. Larsson. Ninety percent of our students work full-time, 
if that is your definition?
    Senator Warren. I will take that one.
    Mr. Larsson. Yes.
    Senator Warren. So, clearly, more of today's college 
students are nontraditional. Veterans back from tours of duty, 
single mothers trying to build a future for their families, and 
many schools like yours are doing a great job in trying to 
adapt and trying to serve these students. But this same 
population has been a prime target for fly by-night for-profit 
and online colleges looking to suck down more Federal student 
loan and Federal student aid money without actually teaching 
these students anything.
    For many of these sham schools, innovations like online 
education have been clever tactics to avoid the costs of 
instructional--of having professors available to them and a way 
for these outfits to maximize profits while the students rack 
up more debt. So before we have a conversation about making it 
easier for those schools to put more students in debt, I think 
students need to know more about the options that are available 
to them.
    Let me just ask you, Dr. May, given what we are asking 
students to spend on a college education, should students have 
as much information as possible to avoid wasting their money at 
lousy schools that could leave them deeper in debt?
    Dr. May. I don't think any of us could disagree with that.
    Senator Warren. Good. I am glad to hear that. But let us 
get to the harder parts. Right now, do you think that 
nontraditional students and adult learners have all the 
information they need to be able to sort out whether or not a 
school is a good investment for them?
    Dr. May. That information is really not clearly available 
for the adult and older learner.
    Senator Warren. All right. So if a student wants to compare 
debt and employment outcomes, for example, of a program at one 
of your schools to a program online that is also based in 
Oklahoma, does this student currently have the tools available 
to do that?
    Dr. May. You know, they could look at the Scorecard, but 
there is not enough information on there to really make a 
meaningful distinction because there is no programmatic 
information.
    Senator Warren. Okay. And why is that so? Why is that 
information not available?
    Dr. May. You know, we really don't count every student 
right now in the process. As I commented a little earlier that 
we seem to value certain students more than others in our 
tracking process, those that are coming out of traditional high 
school right into college, we--first time in the fall semester, 
we track those. We don't count others that we should be looking 
at so the students can make meaningful distinctions, and so 
that institutions can understand what is happening as well.
    Senator Warren. Yes. You know, I think that the key to 
innovation is to start with having better data. And more data 
from innovative pilots and experiments to see if they are 
actually working for students, more data about how well 
colleges are actually serving their students. That is why 
Senators Hatch, Cassidy, Whitehouse, and I have introduced the 
bipartisan College Transparency Act to put more information 
about college outcomes in the hands of students so that they 
can invest their time and money at schools that will actually 
pay off for them.
    Mr. Chairman, I look forward to working with you and with 
Ranking Member Murray and the rest of the bill's sponsors to be 
able to include this bill in the Higher Education Act 
reauthorization.
    Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Dr. Brittingham, you are involved--you are an expert on 
accreditation, I think. You are involved with a lot of 
accreditation agencies.
    Dr. Brittingham. I am.
    The Chairman. Is it clear that the accrediting agencies on 
which you participate are free to spend more of your time on 
schools who have had problems and less of your time on schools 
that have historically not had problems? Can you differentiate 
between, among schools?
    Dr. Brittingham. Absolutely. And I would be happy to----
    The Chairman. You can? I thought there was a reluctance on 
the part of some accreditors to do that because they thought 
the law wasn't clear?
    Dr. Brittingham. I think--I think the issue is that--when 
schools are in trouble, accreditors spend a lot of time with 
them. I think the issue is for robust, successful institutions, 
is there more flexibility to tailor a review for them that 
would provide value to them?
    I have a chart that I put together, and I would be happy to 
share it with you and your staff, that demonstrates for our 
commission, for example, how much more time we spend with 
struggling schools. That is not an issue, I don't think.
    The Chairman. It is not? Okay.
    Dr. Brittingham. I don't believe so.
    The Chairman. Well, we had testimony that where it was 
resisted pretty strenuously that you should be allowed to spend 
more time with one school and less time with another school 
based upon the history of that school. So that is--we are wrong 
about that?
    Dr. Brittingham. We have ``frequent fliers'' on our agenda.
    The Chairman. Yes, but I am quite serious because if it is 
not an issue, we can drop it. But I was--I thought----
    Dr. Brittingham. I am serious, too. Our commission----
    The Chairman. My sense is if you are accrediting Harvard 
and if you are accrediting a school that historically had a lot 
of problems, did it make a lot of sense to spend time on the 
school with a lot of problems rather than with a school which 
has fewer problems?
    Dr. Brittingham. That is correct. And what my chart shows 
is that a school, a very robust school--Harvard is an example, 
our commission sees it twice in 10 years. With other schools, 
we see them at least once a year and sometimes more often.
    The Chairman. Does everybody else agree the law is clear 
that accrediting agencies can spend less time on some schools 
and more time on other schools, based upon whether they are--or 
do you know? Is that an expertise of yours?
    Ms. Linderman. That is not an expertise area.
    The Chairman. Let me go to a second area. On the definition 
of computer--I mean, of competency-based education, I sense a 
strong interest in making sure that our laws keep up with the 
world as students try to receive competency-based education. 
And it would be very helpful to us, and I have seen your 
testimony, following this if you could answer your own 
recommendations--for example, Dr. Bushway, Dr. Brittingham--and 
if we need a new definition for competency-based education, why 
don't you write one for us and give it to us in a follow-up and 
let us--let us consider what that ought to be?
    If we need specific guardrails that you think are not in 
law, which Senator Murray talked about, you have mentioned this 
in your testimony. But if you want to be very specific and say, 
``If I were in your shoes, this is what I would do,'' that 
would be very helpful to us and to our staff.
    I gather you think that, that a--you did say a 
demonstration project is better than an experimental project. 
We have an experimental project today that is not very 
successful. How can we--and I used the example earlier, if 
McDonald's is introducing a new gravy, it doesn't do it at all 
14,000 stores. It tries it out in Dallas and Nashville first to 
see if it tastes good.
    How can we be aggressive about encouraging competency-based 
education, but at the same time define it correctly and be 
appropriately cautious? I mean, we don't want to go to all this 
trouble of a new law and then authorize another experimental 
site, which most campuses won't participate in.
    Dr. Bushway. I will take a first stab at that. And first of 
all, we will definitely follow-up on the definition request, 
and thank you for it.
    The problem with the experimental sites are sort of 
twofold. One is that, and this is sort of down in the weeds, 
but the lack of a definition in the statute means that you 
can't waive certain requirements for CBE alone, which limits 
the kind of innovation that can be allowed in the experimental 
site.
    That limitation, combined with the second factor, which is 
that the experiment then gets sort of clunky and convoluted, 
has made it so that it wasn't worth the while for many 
institutions to put the energy into that. They weren't going to 
get enough lift out of the work to actually do it.
    I think defining CBE as a separate entity in the statute, 
or allowing us to have that as a separate category of work, 
would then allow us to build a demonstration project against 
that and with very specific expectations, but also streamlined 
so that institutions will get benefit, students will get 
benefit, but it is not overwhelming in terms of the sort of 
regulation involved in it.
    The Chairman. Well, my time is up, and we can come back to 
it when it--maybe at the end of a second round. But I would 
invite any of you to describe definitely how you would--how you 
would authorize a demonstration project and how you would 
define CBE and what the guardrails ought to be so that we can 
move ahead as rapidly as is appropriate.
    Senator Jones.
    Senator Jones. Thank you, Mr. Chairman.
    Thank you to the panelists not only for being here today, 
but for all you are doing for students of all ages to try to 
help them succeed.
    Mr. Larsson, I was particularly interested in your program 
at Match Beyond, and I am wondering if you have any thoughts 
about how Members of Congress can look to make these amenities? 
I mean, I firmly believe that education is far more than just a 
classroom learning. And especially in low-income areas, access 
and transportation and the ability to have a quiet study place 
and food is just as important as a really good professor.
    Can Congress do something? Can we do something to kind of 
make these amenities more available? And I would also like you 
to briefly address the criteria that you use for these 
students, for selecting these students and outreach to try to 
let people know these programs are available.
    Mr. Larsson. So in terms of what Congress can do about 
these amenities, I think it is complicated because one of the 
things that we are able to do with our students is select 
literally based on what students need today and help them with 
what they need today.
    Somebody may need transportation help today. Somebody may 
need help with transportation next month. We can bounce that. I 
do think it is important, though--I do think it really ties up 
with the discussion around outcomes and how colleges are being 
held accountable for results.
    I think if a college lets in a lot of students who they 
know provides access to a lot of students who they know need 
these supports, who have Pell Grants, who do come from low-
income high schools, and if they are providing the right 
supports for them in that context for the city or town or 
neighborhood they are in, they should be reaching those 
outcomes, you know? So it goes back to my testimony where it is 
really not about how smart or hard-working a student is.
    In terms of how we see if someone is a good fit for our 
program, students practice or enroll with us for a month. So 
Southern New Hampshire University has a 30-day period where you 
can take part. You can submit projects. You can work on it. We 
can work with the student. And at the end of those 30 days, if 
it didn't work for you, then you don't owe any money, and then 
you can come back another time.
    Since most of our students haven't been in high school for 
a while, since they are older, we don't look to traditional 
measures. We just say if you can make this work now, great. And 
if it doesn't work for you right now, come back in a couple 
months. Southern New Hampshire University enrolls monthly. So 
find a time that works for you.
    In terms of where our students come from, right now it is 
actually mostly word of mouth, which we are excited about. We 
also work really closely with a lot of the community-based 
organizations in Boston who have the same mission of college 
success for the students they serve--high schools, social 
service organizations--who are running up again the same 
problems that we saw of a lot of their hard-working, smart 
students just were not getting degrees.
    Senator Jones. All right. Well, thank you.
    A similar question, Dr. May, to you because I also like the 
dual enrollment programs, and especially I was struck by the 
testimony earlier about one of the problems that we have is the 
handoff. I think that is especially a problem for low-income 
students, students in rural areas, and often students whose 
parents or siblings never went to college, and they are first-
generation colleges.
    How can we do a better job of getting access to those dual 
enrollment programs to give those kids the confidence to 
continue their education? Specifically with low income, 
transportation is an issue, especially in rural areas where 
there is not a program right onsite. Have you got any thoughts 
on that?
    Dr. May. One, I think specifically encouraging those types 
of relationships would make a big difference in terms of 
establishing more dual enrollment programs, but high-quality 
ones, ones that are really meaningful and leading to degrees 
and, as I said earlier, that follow very specific pathways so 
that students can see not only where they begin but have an 
understanding of where that they are going to end.
    I think also encouraging, there is kind of a tendency in 
the process, if you look at it, to build a wall around the 
college and say that the college has to control everything. 
Well, frankly, that is limiting us today.
    What we need is collaboration. We need to--instead of 
trying to hoard everything, we need to be not hoarding and 
sharing and realizing that we share a common responsibility. 
You know, the average student that we see is going to multiple 
institutions at the same time.
    So recognizing that as they are coming out of high school 
that we have got to prepare them for a future that no matter 
where they start or where they are going along the way, that 
they have got a pathway to a high-value certificate or degree.
    Senator Jones. Well, thank you. Thank you very much.
    Thank you, Mr. Chairman, for this hearing. And again, I 
want to thank all of the panelists for the wonderful work you 
are each doing in your respective areas.
    Thank you.
    The Chairman. Thank you, Senator Jones.
    Senator Young.
    Senator Young. Well, thank you, Chairman, Ranking Member, 
for holding this critical hearing on access and innovation in 
higher ed.
    Today, I am introducing legislation that would preserve and 
enhance innovation in our higher education system. What I am 
calling the Innovation Zone Act will reform what is an 
underutilized and inefficient program in existing law, the 
Experimental Sites Initiative in the Higher Education Act.
    The Experimental Sites Initiative has been around since the 
mid 1980's, but a lack of evaluation has led to an unknown 
impact of many experiments. These experiments are a vital part 
of understanding where flexibility is needed and how to ensure 
that students have every opportunity to be successful.
    Out of the 10 ongoing experiments, only one has published 
outcomes. Some of these experiments started over 7 years ago. 
In my home State of Indiana, we have four institutions of 
higher education that are authorized to participate in the 
Experimental Sites Initiative. They all have varying 
experiences.
    One institution was approved 2 years ago, but it hasn't 
begun due to complications with the framework of the 
experiment. On the other hand, there are institutions that have 
been actively participating and submitting timely data for 
years.
    So the legislation I am introducing would require the 
Secretary to establish the methodology of capturing data before 
the experiment ever begins. That would give colleges a clear 
direction in reporting data. It would also allow institutions 
the opportunity to submit suggestions for future experiments.
    I look forward to working with Members of this Committee in 
incorporating these key elements in the next reauthorization. I 
would add, Dr. Bushway, that I believe this legislation, 
through our allowance for Title I experimentation, would 
accommodate your concerns.
    For Dr. Brittingham, I have a couple of questions. As the 
president of the Commission of Institutions of Higher Ed, which 
accredits over 225 institutions, one, is there value in 
institutions of higher education experimenting? To put 
differently, in innovating? And if so, are there barriers you 
have seen that prevent institutions from participating in 
experiments?
    Dr. Brittingham. Thank you for the question.
    We have had several institutions in New England participate 
in these experiments, and I think they have benefited from 
them. I applaud your interest in strengthening the evaluation 
component and would suggest that one perspective on that would 
be that of the accreditor. Because when institutions 
participate in these experiments, they must bring the proposal 
to the accreditor as a substantive change to be reviewed and 
approved before they begin, and then we send out teams of peers 
to look at them.
    We would like to learn not only what we are learning from 
this experiment, but what others around the country are 
learning, and I think we would have a contribution to make 
there.
    Senator Young. That is very helpful. Thank you.
    I am going to turn, because my time is limited, to 
competency-based education. Going back to Dr. Bushway, in your 
testimony, you mentioned Congress should authorize a 
demonstration project for CBE to test innovative changes on a 
pilot scale before deploying them more broadly.
    I tend to think we need to do a lot more of this in 
Government. Pilot, rigorously evaluate, scale up the things 
that are working. Admit we have achieved suboptimal outcomes in 
those areas that aren't working.
    You are likely aware that the Department of Education has 
two ongoing experiments on CBE with 13 participating 
institutions in one and 10 participating institutions in the 
other. However, no outcomes data has been reported since they 
began in 2014 and 2015, respectively.
    If outcomes or any data whatsoever for these ongoing 
experiments would be consistently reported to Congress and 
published online for your and other stakeholders' review, would 
there even be a need for an additional pilot program?
    Dr. Bushway. Great question. It would--if data were 
rigorously collected methodologically and reported, that would 
greatly reduce the need for a demonstration project. The nuance 
here is that the waivers allowed in those ESIs are restricted 
due to the fact that there is no definition for CBE in the 
statute, and so that limited the opportunity to test out some 
additional freedoms that could be learned from.
    Senator Young. And so that is why we are allowing 
experimentation under the bill I am drafting immediately--
dropping immediately after this hearing, experimentation in 
Titles I and IV. And the experimentation allowed in Title I, we 
believe would accommodate changes in definition.
    Thank you so much for your testimony, and thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Young.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I want to thank Senator Young for that line of questioning. 
I actually had a question here on the Experimental Sites 
Initiative. It has been going on for 20 years, and the 
Department of Education has yet to produce much meaningful data 
about what they have learned from it. We can do a lot better by 
that program. So I will look forward to maybe talking to him 
about his legislation.
    I wanted to ask a broader question about how we get 
accountability right in the face of increased innovation, and I 
will direct this to the panel. I imagine Ms. Linderman and Dr. 
Brittingham will have something to say about it. So maybe I 
will direct it through you.
    But listen, innovation stinks without accountability, and 
so I am--I want this Committee to be at the forefront of 
innovation. I think it is ridiculous that colleges don't have 
the ability to build more innovative models, and competency-
based education is a perfect example of where we failed as a 
Congress.
    But there are different ways to do accountability. You can 
have a market-based accountability, and I have a feeling that 
is what Republicans will probably want, where the 
accountability is in the students' hands. But the data doesn't 
exist right now for students to hold colleges accountable. We 
have a ban in the Higher Education Act on a unitary student 
record, which would allow students to know whether graduates of 
a particular college are actually making money or not making 
money, are in the field that they want to go into or not in the 
field that they wanted to go into.
    The other worry with student-based accountability, market-
based accountability, is that the college's marketing, with 
millions of dollars behind it, will blot out the good data that 
students may technically have access to.
    The other way to do it is by regulator-based 
accountability. Change the way that we regulate colleges, and 
instead of holding them accountable through accreditation or 
regulation for a whole host of things that don't have to do 
with outcomes today, just say, listen, we are going to really 
pay attention to how well your students do when they graduate 
and do something about it.
    We technically do that today with student default rates, 
but it is really hard to get dinged today, given the high bar 
that we have for failure. So my question is where should the 
accountability come? Should it be student-based accountability? 
Should it be regulator-based accountability? How do we think 
about those questions?
    I am going to put it in the center there and ask others, if 
time permits.
    Ms. Linderman. So I will jump in quickly, leaving time for 
my fellow witnesses. I think it is absolutely critical, and I 
think accountability begins with the institution itself, 
setting rigorous outcomes data and saying we are going to move 
toward this. And if we don't, we are willing to put our money 
where our mouth is.
    Senator Murphy. But that is not satisfactory.
    Ms. Linderman. So for the ASAP program----
    Senator Murphy. That is not accountability.
    Ms. Linderman. So for ASAP, for example, when we were 
funded when the program began, 2007, we were told by the city, 
we are going to give you $20 million. You are setting a 
rigorous 50 percent, double the graduation rate. We will take 
your money away from you if you don't--if you don't succeed. If 
you do, we will baseline your funding so the program can 
continue and then grow.
    CUNY took that challenge very, very seriously, and here we 
are, 10 years later, moving from 1,100 students to 25,000 
students.
    I do believe in rigorous regulation. I think that there 
should be regulation holding colleges to outcomes that they 
set, and I do think that we should look at labor market data as 
well to see if students are moving into jobs that pay.
    I think accountability has to be a 360 enterprise. But I 
feel very strongly, and we have proven in ASAP, that saying you 
set rigorous completion rates, and you don't reach them, you 
should not be funded anymore. So we stand by that.
    Senator Murphy. Anybody else?
    Dr. Brittingham.
    Dr. Brittingham. Yes, thank you for your question.
    I think one of the--to me, it looks like one of the 
challenges for Congress is to come up with a framework for 
innovation and how to test it because I am not sure anybody can 
predict what those innovations are going to be 5 or 10 years 
from now that we will want to look at.
    A general framework seems like it would be helpful, and the 
exact measures would need to be determined with respect to each 
of the experiments. Maybe having experiments that are 
educational experiments and not just financial aid disbursement 
experiments would be a good idea.
    Certainly, the criteria for the experiments on second 
chance Pell would be different than direct assessment. So I 
think the evaluation needs to be outcome-directed, but it needs 
to be tailored to what the experiment is about. I think that is 
a big challenge.
    I will, just one more thing, say that the accreditors, 
regional accreditors together, have a project, and we expect a 
report out by the end of this month about looking at 
institutions with low graduation rates. And we will make a copy 
of that available to you.
    Senator Murphy. Mr. Chairman, I asked the question 
because--and I do worry about the Congress or regulator 
directing what innovation is allowed to happen and what isn't. 
At the same time, I worry about putting all of that 
responsibility in students' hands.
    If we simplify the regulation of colleges and got rid of 
some of the weeds but made sure that they were paying attention 
to outcomes, I think that would make it a lot easier to allow 
for a little bit more freedom of innovation underneath.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Murray, do you have any concluding remarks, 
questions?
    Senator Murray. I just have an additional question. But I 
think this has been a really good hearing, and I think we have 
heard a really convincing case about competency-based education 
that we can start our framework on.
    But Dr. Bushway, I did want to ask you, because you are an 
expert in the field and while you are here, what do you believe 
are the top three essential elements a rigorous and well-
designed CBE program must have? And tell me what, in your 
opinion, is the biggest danger or unknown that we need to guard 
against?
    Dr. Bushway. Thank you.
    I would say the top three key elements for a quality CBE 
program is this--the curriculum design, that there is a 
backward design with the outcomes in mind and that it is a 
cohesive, integrated pathway for the student to gain and 
demonstrate the competencies that are being promised from that 
credential.
    Second, that there is a method of integrated and proactive 
support for student success that is mandated in that program.
    Third, that there are transparent, validated, and 
responsive outcomes upon which this program is built. And by 
``responsive,'' I mean responsive to the needs of the community 
and business, these skills gaps that are being identified.
    I think, if I were to be asked, which you just did, the 
greatest risk, I would have to say that as much as I want this 
innovation to move forward and as much as no one wants to sort 
of move away from things like credit-hour or fix the problems 
with some of the expectations about faculty interaction within 
CBE more than I do, but I think we also have to move cautiously 
as we move forward with this.
    One of the greatest risks I think we have is to move to 
solution before we understand the implications of those 
solutions not only for CBE, but for broader higher ED. I don't 
want to see a race to the bottom, where we get soured on 
innovation in higher ED more broadly.
    Senator Murray. Right. Okay, very good advice. Thank you.
    The Chairman. Thanks. Thanks, Senator Murray.
    I think Senator Murray correctly assesses our interest in 
competency-based education. My only comment would be that the 
demonstration project, which you have suggested is a better 
approach, could be measured and cautious, but it needs to be 
large enough to help us understand what we can do. Because we 
are talking about several thousand campuses in America and tens 
of thousands of programs that could use more competency-based 
education.
    I think, to simplify, that the major--that one major 
impediment to that, maybe the major impediment, is how do we 
relate Federal financial aid to competency-based education? How 
do we relate the credit-hour?
    Now there are all these things we need to do in connection 
with that, but fundamentally, we have to understand how do we 
adjust credit-hour or Federal financial aid in a way to make it 
possible to have responsible competency-based education. Would 
you agree with that?
    Dr. Bushway. Completely agree. At the core, it is that 
problem, right?
    The Chairman. Yes. And that is--so we need a demonstration 
project that is large enough or more than one demonstration 
project that try different things so that we can--that we can 
move. We don't want to get 50 years from now and not have 
gotten anywhere while the rest of the world passes us by.
    So from all of you, I welcome any--I think all of us would 
welcome your specific suggestions and recommendations about how 
we adjust Federal law in demonstration projects to move to 
encourage competency-based education. I, for one, am not 
willing--I don't think it is a good idea just to say, ``Oh, we 
got a good idea. Let us do it for everybody,'' before we know 
what we are doing.
    Dr. May, this is my last question. I was interested in your 
dual enrollment students, and I have seen that in our state in 
Tennessee. And what it has caused me--a state where 2 years of 
postsecondary education is now free, tuition-free. But it seems 
to me that dual enrollment or high school students taking 
college courses is something that is appropriate for states to 
pay for.
    I mean, we have had a lot of testimony here about how 
states have not been stepping up to support higher education. I 
can see the difference of the time when I was Governor 30 years 
ago to today, and it is about half as much. And I have resisted 
Federal mandates on states to require them to do more. I don't 
think that is appropriate for the Federal Government.
    But the dual enrollment systems are very popular. They have 
got a broad base of support among parents and students, and 
they really help turn the high school, which is often obsolete 
in some respects, into a more interesting and useful and 
constructive experience.
    I wonder--and also we do have an experimental program about 
whether to allow the use of Pell Grants for dual enrollment. 
And I am sure if there were an unlimited amount of money 
available, that would be a useful thing to do. But we have lots 
of uses for Pell Grants. You have mentioned displaced adults. 
If we simplify the Federal aid and student loan repayment 
system, we would expect, testimony has been many more Pell 
Grants could be awarded.
    As competency-based education encourages and as people 
reach for postsecondary education, we would expect many more 
Pell Grants. Some Senators think Pell Grants should be larger. 
So I wonder what you think about the appropriateness of 
thinking that dual enrollment costs are an appropriate and 
useful function of state and local funding.
    Dr. May. One, and thank you for that question, I do believe 
very strongly that we all need to be invested in the success of 
our students coming through. And by not having the state put 
dollars into that, frankly, we create barriers. We create silos 
where individuals, rather than cooperate, they compete for 
funds, feeling like that if they go over here, then I am not 
getting them at my college or my school.
    By coming together around a common problem, which is how do 
we increase the education level of our population and really 
looking at how we all play a role in that, whether it be high 
school or college, or employers as well, I think need to come 
together. And the states need to be investing in that effort.
    The Chairman. Does Texas pay for--how does Texas--who pays 
for your dual enrollment students?
    Dr. May. The way--and it is because Texas has 50 separate 
community college districts around the state, and each one of 
them is a little bit different. But state dollars do go both to 
the high school and to the college to support dual credit.
    The Chairman. Okay. Thanks to each of you for your time and 
your being here.
    The hearing record--unless there are other comments, the 
hearing record will remain open for 10 business days. Members 
may submit additional information and questions to our 
witnesses for the record within that time, if they would like.
    The Chairman. The next scheduled hearing before the 
Committee will be this afternoon at 2:30 p.m. on the nomination 
of Frank Brogan to be the Assistant Secretary for Elementary 
and Secondary Education.
    Thank you for being here today.
    The Committee will stand adjourned.
                                ------                                


                          ADDITIONAL MATERIALS

                  PREPARED STATEMENT OF SENATOR HATCH

    I'd like to thank Chairman Alexander for holding this 
hearing. Innovation in higher education can take many shapes 
and sizes, and often times innovation and access can be one in 
the same topic as I think we've seen from the testimony.
    Utah is home to Western Governor's University which offers 
distance education and competency education--they're completely 
online and enroll over 80,000 students across the country, many 
of whom reside in states represented by Members of this 
Committee. The average age of their student is 37.
    In my home State of Utah, Salt Lake Community College 
provides career and technical education students with 
nationally recognized CBE courses that allow them to make more 
rapid progress by demonstrating what they know through prior 
coursework, on-the-job-training, military training or through 
other life experiences. Salt Lake Community College faculty 
members work closely with employers in the state to ensure 
students are learning skills that are in demand. These faculty 
members also evaluate their CBE programs based on workforce 
outcomes and not solely on input measures like financial 
resources and material resources.
    I believe it's important to keep these constituencies in 
mind when we're talking about innovation in higher education. 
Competency Based Education is utilized by many non-traditional 
students who take advantage of the flexible, affordable, 
performance-based offerings. I support CBE largely because it 
benefits both students and communities by preparing students to 
respond to rapidly changing workforce needs.
    As we approach a higher education reauthorization, it will 
be important to define competency based education and provide a 
distinction between distance learning and correspondence 
learning. We must provide appropriate flexibility to ensure 
that innovative models are not stifled by Federal bureaucracy 
and needless restrictions.
    To that end, I look forward to working with Chairman 
Alexander to establish a framework for competency-based 
education--one that allows flexibility for innovation, promotes 
education for the 21st century workplace, empowers accreditors, 
and ensures students have access to quality programs that 
result in transferable credentials and certifications.
    I also hope to work with this committee to support 
initiatives that empower institutions to develop evidence-based 
practices to increase access to higher education for high-need 
students, increase degree attainment, and improve efficiency in 
our higher education systems.
    Students deserve high quality programs--quality assurance 
can be achieved by providing students and consumers with more 
transparency in higher education. Making programmatic and 
workforce data available to the public would allow prospective 
students to shop for the best higher education program that 
fits their individual goals and needs. My bipartisan 
legislation, the College Transparency Act, cosponsored by 
Senators Cassidy, Warren, and Whitehouse does just that--and I 
think any conversation related to innovation should necessarily 
include a discussion of improving consumer access to 
information.
    I look forward to working with Chairman Alexander and other 
Members of this Committee to introduce legislation that will 
address the proper framework for Competency Based Education, 
and deliver on our promises to students, institutions, and 
consumers.
                                ------                                

Hon. Lamar Alexander
Hon. Patty Murray
U.S. Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC.

    Dear Chairman Alexander and Ranking Member Murray: On 
behalf of Salt Lake Community College (SLCC), thank you for 
holding the hearing on ``Reauthorizing the Higher Education 
Act: Access and Innovation.'' SLCC has a particular interest in 
competency-based education (CBE) and writes this letter 
outlining our position on the matter for the hearing record.
    As Senator Orrin Hatch (R-UT) referenced in his remarks, 
SLCC has become a leader in innovation for all students, 
especially adult learners. SLCC serves over 61,000 students 
across ten sites throughout Salt Lake Valley and CBE is a key 
part of our strategic goals to serve these students and our 
community's workforce needs. A $2.5 million Department of Labor 
Trade Adjustment Assistance Community College and Career 
Training (TAACCCT) grant and existing college resources enabled 
us to convert 20 programs within the School of Applied 
Technology (SAT) to CBE. We plan to continue converting these 
career and technical education programs and others to CBE. As 
one of only a handful of participating institutions in the 
Department of Education's CBE experimental site initiative, we 
are eager to share our lessons learned and promising data on 
student engagement and completion rates.
    SLCC supports legislative efforts to allow students 
enrolled in CBE programs to receive Title IV financial 
assistance. However, as the Senate HELP Committee drafts 
provisions governing CBE programs, we strongly encourage each 
Committee Member to consider the following to ensure bad actors 
are held accountable and Title IV programs are protected 
against fraud, waste, and abuse:

    <bullet> L Definition of CBE. Currently, there is no 
definition for CBE, which has caused confusion and delays in 
the implementation of the Department of Education's CBE 
experimental sites initiative. SLCC requests that lawmakers 
ensure the definition of CBE: (1) requires programs to assess 
credit or clock hours to minimize challenges, such as how to 
assess credits when a student transfers from a CBE program to a 
credit hour program; (2) requires faculty interaction and 
support; and (3) recognizes knowledge, skills, abilities, and 
intellectual behaviors demonstrated by a student in a subject 
area as elements of the definition and not optional factors. 
These elements must be integrated into and generally accepted 
by CBE programs to maintain the overall integrity of the 
credential earned.
    <bullet> L Quality Assurance Thresholds. In addition to 
what we outlined above, we strongly encourage the HELP 
Committee to ensure that if the Federal Government allows 
students to use their Title IV funds to enroll in CBE programs, 
these programs are of high quality where students benefit and 
are not placed at risk. As the HELP Committee considers what 
accreditors should review, we request that the following 
quality threshold provisions are included, among others:
        <bullet> L the quality of demonstration of competence 
        is judged at mastery for each competency assessed;
        <bullet> L a standard for the amount of learning that 
        is included in a unit of competency;
        <bullet> L standards for determining when to deny, 
        withdraw, suspend, or terminate the accreditation of 
        the program if the reasonable benchmarks outlined above 
        are not reached; and
        <bullet> L reasonable benchmarks for graduation rates 
        and/or job placement rates. We believe that with 
        certain safeguards in place, job placement rates serve 
        as a useful completion measure. At SLCC, CBE programs 
        are fully integrated into our career and technical 
        education programs and the demand for jobs in our 
        region affords students the opportunity to secure jobs 
        prior to graduating from our programs because of the 
        competencies they have mastered. SLCC also supports 
        using time-to-completion rates and student satisfaction 
        as additional reasonable benchmarks. As an open access 
        institution, however, we have some concerns with using 
        debt-to-earnings ratios and loan repayment rates as 
        benchmarks because there are a number of underlying 
        factors, independent of the college, that may be 
        attributed to lower numbers for these rates.
    <bullet> L Data Collection. SLCC believes that the proper 
and reasonable collection of data is another quality assurance 
mechanism and helps to significantly inform decisions on how to 
best improve instruction and student outcomes. Therefore, SLCC 
urges the HELP Committee to include provisions that require the 
regular evaluation of whether a CBE program meets the 
reasonable benchmarks we discussed above.
    The Senate's HEA reauthorization measure should allow for 
institutions of higher education to innovate as freely as 
possible, but not in a manner that puts students at risk and 
makes the Title IV program vulnerable to abuse and waste. If 
the Committee pursues a full authorization of CBE programs, 
instead of a demonstration project, guardrails must be in place 
to ensure the reputational value and sustainability of CBE 
programs. Otherwise, there will be an emergence of bad actors 
that are not properly held accountable and a need for a 
legislative or regulatory response that may result in 
overcorrection and burdensome regulations for good actors.
    SLCC welcomes the opportunity to discuss our position with 
you and to serve as a resource given our background, expertise, 
and success in CBE. We also encourage policymakers to use the 
Competency-Based Education Network's (C-BEN) CBE Quality 
Framework to help inform how the HELP Committee authorizes CBE 
programs.
            Sincerely,
                                                Tim Sheehan
              Vice President for Government and Community Relations
                                Salt Lake Community College
    Cc:
    Senator Orrin Hatch (R-UT)
    Senator Michael Enzi (R-WY)
    Senator Richard Burr (R-NC)
    Senator Johnny Isakson (R-GA)
    Senator Rand Paul (R-KY)
    Senator Susan Collins (R-ME)
    Senator Bill Cassidy (R-LA)
    Senator Todd Young (R-IN)
    Senator Pat Roberts (R-KS)
    Senator Lisa Murkowski (R-AK)
    Senator Tim Scott (R-SC)
    Senator Bernie Sanders (I-VT)
    Senator Robert Casey, Jr. (D-PA)
    Senator Michael Bennet (D-CO)
    Senator Tammy Baldwin (D-WI)
    Senator Christopher Murphy (D-CT)
    Senator Elizabeth Warren (D-MA)
    Senator Tim Kaine (D-VA)
    Senator Maggie Hassan (D-NH)
    Senator Tina Smith (D-MN)
    Senator Doug Jones (D-AL)
                                ------                                


                      WESTERN GOVERNORS UNIVERSITY

    Chairman Alexander, Senator Murray, and Members of the 
Committee, Western Governors University (WGU) is an online, 
nonprofit university founded in 1997 by a visionary group of 
U.S. Governors, including former Utah Governor Michael O. 
Leavitt and former Colorado Governor Roy Romer. These Governors 
saw technology advancement as both an opportunity to 
dramatically expand access to quality higher education by 
making it possible to learn independent of time and place, and 
also to design and demonstrate competency-based education (CBE) 
as an effective model for improving educational quality and 
student outcomes.
    We applaud you and the work of the Senate HELP Committee 
Members to improve access and affordability, especially for 
under-served populations, while enabling innovation in higher 
learning. Reauthorization of the Higher Education Act (HEA) 
should aim to reinvigorate the promise of higher education for 
the 21st century. The HEA should support and encourage higher 
learning innovations that help Americans throughout their 
lifetimes with post--secondary learning opportunities that lead 
to developing and sustaining productive lives.
    WGU's defining principle is a focus on the student--every 
decision and initiative starts with our students. Student 
success and support are the obsession of all faculty and staff. 
WGU faculty work as specialists: curriculum developers, who 
design programs, materials, and assessments; course 
instructors, who provide individualized instruction and subject 
matter expertise; program mentors, who provide regular 
guidance, augmented instruction, and coaching for the duration 
of a student's journey to graduation; and evaluators, who 
anonymously review and evaluate student assessments to ensure 
academic integrity.
    The success of WGU's learning model is demonstrated in 
outcomes--student, graduate, and employer satisfaction levels 
that are significantly higher than the national average; 
dramatically lower debt levels which decrease annually; and 
better employment outcomes for graduates. WGU works with 
independent third parties to track and monitor student 
engagement and outcomes, and we have included some highlights 
below.

                         Gallup--Alumni Survey

    <bullet> L88 percent of WGU graduates said they had a 
mentor who encouraged them (national average of 54 percent).
    <bullet> L83 percent of WGU graduates were challenged 
academically (national average of 77 percent).
    <bullet> L92 percent of WGU graduates said their experience 
was worth the cost (national average of 65 percent).
    <bullet> LWGU alumni are almost twice as likely as 
graduates of other institutions to be thriving in all elements 
of well-being--purpose, social, financial, community, and 
physical.
    National Survey of Student Engagement--Students gave WGU 
high marks, well above the national average, in the following 
areas:
    <bullet> LQuality of interactions with faculty--16 
percentage points higher.
    <bullet> LAcademic support--13 percentage points higher.
    <bullet> LRating of entire educational experience--6 
percentage points higher.
    <bullet> LChallenging coursework--16 percentage points 
higher.

            Harris Poll--Graduate Survey & Employer Surveys

    <bullet> L88 percent of WGU graduates are satisfied with 
academic help (national average of 81 percent).
    <bullet> L87 percent of WGU graduates are satisfied with 
overall experience (national average of 67 percent).
    <bullet> L89 percent of WGU graduates are employed in 
degree field (national average of 84 percent).
    <bullet> L91 percent of employers said WGU graduates meet 
or exceed expectations.
    <bullet> L97 percent said that they would hire another WGU 
graduate.

                           Other Key Metrics

    <bullet> L78 percent 1-year retention rate (74 percent 
among public 4-year institutions)
    <bullet> L$21,200 increase in annual income within 4 years 
of graduation among WGU graduates
    <bullet> L49 percent 6-year graduation rate (10 percentage 
points higher than comparable institutions)
    <bullet> LUndergraduate tuition less than $6,500 per year; 
Bachelors complete on average in 2 years 4 months
    <bullet> L$12,500 median Federal debt at graduation (for 
WGU undergraduates who borrow)
    <bullet> L4.6 percent 3-year loan default rate (vs. 
national average of 11.5 percent (all institutions))
    <bullet> L91,000+ enrolled students in all 50 states, D.C., 
Guam, Puerto Rico, Virgin Islands, and U.S. military bases 
worldwide
      <bullet> LBusiness College--33,600 (37 percent)
      <bullet> LHealth Professions--24,600 (27 percent)
      <bullet> LTeachers College--20,000 (22 percent)
      <bullet> LInformation Technology--13,300 (14 percent)
      <bullet> L100,483 degrees awarded
      <bullet> LStudent demographics:
       <bullet> Average age: 37, ranging from 16 to 79
       <bullet> L73 percent work full time; 12 percent work 
part time
       <bullet> L65 percent female; 35 percent male
       <bullet> L71 percent classified as under-served in at 
least one of the following categories:
       1AFirst-generation college student: 40 percent
       1ALow income: 23 percent
       1AEthnic minority: 29 percent
       1ARural: 16 percent
    As an innovator in higher education, and an institution 
focused on student success, WGU supports policy and legislation 
that encourages and supports innovation in:
       <bullet> Advancing quality and relevancy of learning and 
its path to opportunity;
       <bullet> Improving access and affordability;
       <bullet> Optimizing student outcomes;
       <bullet> Improving transparency and accountability for 
both students and institutions.
    Education remains the single biggest catalyst for 
individuals to change their lives. We believe that good Federal 
policy must not only recognize, but also encourage innovation 
in the design, delivery and flexibility of higher learning to 
improve institutions' ability to serve a broad and increasingly 
diverse student body. A key example of such innovation is 
Competency-based Education (CBE), which challenges higher 
education convention by measuring learning rather than time. It 
recognizes that adults have different levels of knowledge and 
learning styles, so rather than having fixed course times, 
students advance as soon as they demonstrate proficiency. Where 
CBE advances innovation in learning modality, the Internet 
enables similar advancements in delivery method--improving 
institutions' ability to deliver high quality curriculum, 
individualized faculty engagement, and technology-enabled 
interaction, all at a distance. Institutions can reach and 
teach students where they are, thus dramatically expanding 
access to place-or time-bound adults. With shifting student 
demographics (nearly 40 percent of students over 24 years old), 
rapid adoption of distance learning (6.3 million students or 31 
percent of total taking some or exclusively online programs), 
and greater need to link learning with opportunity and 
workforce readiness, we should only expect accelerated 
innovation in the design and delivery methods of higher 
education.
    Recent surveys also suggest that a decreasing percentage of 
adults believe that higher education is accessible (61 percent 
in 2015, down from 67 percent in 2013) and even fewer believe 
it is affordable (21 percent). We know how vital Federal loan 
and grant programs are in serving adults, particularly the 
under-served. We encourage sound policy that simplifies 
financial aid options, student application and disbursement 
models consistent with innovation in modes and methods of 
education delivery. We also believe that without reasonable 
conditions and standards, unfettered access to funding may 
diminish institutions' effort to control costs and advance 
alternative models that are key to improving affordability. The 
principle of responsibility also applies to the student. 
Through its industry-recognized ``Responsible Borrowing 
Initiative'', WGU improves clarity on total costs of attendance 
and lifetime loan cost in providing recommended loan amounts to 
students. It holds true that with more and better information, 
individuals make better choices, and WGU has reduced annual 
borrowing per student by 41 percent. Affordability is key to 
expanding access, and Federal policy should encourage 
institutions to reduce cost, while simplifying access and 
funding options for students.
    WGU is proud of its heritage--clearly, our innovative 
academic delivery model provides a significant return on 
investment for students and taxpayers. We are obsessed with 
ensuring that our students receive a quality, affordable 
education that expands their opportunities and enables them to 
lead sustaining and productive lives, throughout their 
lifetime. Our success is attributable to being flexible and 
nimble as education technology improves and learning science 
continues to evolve. We believe that WGU would have neither 
survived, nor scaled, had it invested in innovation that did 
not work. We imagine all would agree that only responsible 
innovation is worth supporting.
    In closing, we respect the challenges and risks of 
innovation designed to improve quality, expand access and 
increase affordability, and we encourage higher education 
policy and legislation that supports learning and delivery 
models that produce positive outcomes. Responsible, impactful 
innovation -- focused on student success--are critical to 
reinvigorating the promise of higher education for every 
American. In turn, such innovation expects, rather requires 
transparency and accountability, both from institutions and 
students. Principles of fairness would evaluate eligible 
institutions against reasonable standards of quality, 
attainment and economic outcomes, regardless of academic model.
    Again, we are grateful for the work of Senate HELP 
Committee, and the many other legislators who are seeking to 
advance Federal policy as we look forward to the next wave of 
innovation in higher education.
    [Whereupon, at 12 p.m., the hearing was adjourned.]

                                   
</pre></body></html>
